<html>
<title> - LEAVING NO ONE BEHIND: IS THE FEDERAL RECOVERY COORDINATION PROGRAM WORKING?</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                         LEAVING NO ONE BEHIND:

                        IS THE FEDERAL RECOVERY

                     COORDINATION PROGRAM WORKING?
=======================================================================

                                HEARING

                               before the

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 28, 2009

                               __________

                           Serial No. 111-15

                               __________

       Printed for the use of the Committee on Veterans' Affairs



                  U.S. GOVERNMENT PRINTING OFFICE
49-913                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                     COMMITTEE ON VETERANS' AFFAIRS

                    BOB FILNER, California, Chairman

CORRINE BROWN, Florida               STEVE BUYER, Indiana, Ranking
VIC SNYDER, Arkansas                 CLIFF STEARNS, Florida
MICHAEL H. MICHAUD, Maine            JERRY MORAN, Kansas
STEPHANIE HERSETH SANDLIN, South     HENRY E. BROWN, Jr., South 
Dakota                               Carolina
HARRY E. MITCHELL, Arizona           JEFF MILLER, Florida
JOHN J. HALL, New York               JOHN BOOZMAN, Arkansas
DEBORAH L. HALVORSON, Illinois       BRIAN P. BILBRAY, California
THOMAS S.P. PERRIELLO, Virginia      DOUG LAMBORN, Colorado
HARRY TEAGUE, New Mexico             GUS M. BILIRAKIS, Florida
CIRO D. RODRIGUEZ, Texas             VERN BUCHANAN, Florida
JOE DONNELLY, Indiana                DAVID P. ROE, Tennessee
JERRY McNERNEY, California
ZACHARY T. SPACE, Ohio
TIMOTHY J. WALZ, Minnesota
JOHN H. ADLER, New Jersey
ANN KIRKPATRICK, Arizona
GLENN C. NYE, Virginia

                   Malcom A. Shorter, Staff Director

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                  HARRY E. MITCHELL, Arizona, Chairman

ZACHARY T. SPACE, Ohio               DAVID P. ROE, Tennessee, Ranking
TIMOTHY J. WALZ, Minnesota           CLIFF STEARNS, Florida
JOHN H. ADLER, New Jersey            BRIAN P. BILBRAY, California
JOHN J. HALL, New York

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                             April 28, 2009

                                                                   Page
Leaving No One Behind: Is the Federal Recovery Coordination 
  Program Working?...............................................     1

                           OPENING STATEMENTS

Chairman Harry E. Mitchell.......................................     1
    Prepared statement of Chairman Mitchell......................    32
Hon. David P. Roe, Ranking Republican Member.....................     3
    Prepared statement of Congressman Roe........................    33
Hon. Zachary T. Space............................................     4
Hon. Timothy J. Walz.............................................     4
Hon. Bob Inglis..................................................     8

                               WITNESSES

U.S. Department of Veterans Affairs, Karen Guice, M.D., MPP, 
  Executive Director, Federal Recovery Coordination Program......    25
    Prepared statement of Dr. Guice..............................    44

                                 ______

Blinded Veterans Association, Thomas Zampieri, Ph.D., Director of 
  Government Relations...........................................    14
    Prepared statement of Dr. Zampieri...........................    40
Brogan, Captain Mark A., USA (Ret.), Knoxville, TN...............     5
    Prepared statement of Captain Brogan.........................    33
Kinard, First Lieutenant Andrew, USMC (Ret.), Washington, DC.....     8
    Prepared statement of Lieutenant Kinard......................    35
Lynch, Cheryl, Pace, FL..........................................    12
    Prepared statement of Ms. Lynch..............................    37
Wade, Sarah, Chapel Hill, NC.....................................    10
    Prepared statement of Ms. Wade...............................    36

                       SUBMISSIONS FOR THE RECORD

Knight-Major, Lorrie, Silver Spring, MD, statement...............    49

                   MATERIAL SUBMITTED FOR THE RECORD

Post-hearing Questions and Responses for the Record:

    Hon. Harry E. Mitchell, Chairman, and Hon. David P. Roe, 
      Ranking Republican Member, Subcommittee on Oversight and 
      Investigations, Committee on Veterans' Affairs, to Hon. 
      Eric K. Shinseki, Secretary, U.S. Department of Veterans 
      Affairs, letter dated May 8, 2009, and VA responses........    52

                         LEAVING NO ONE BEHIND:

                        IS THE FEDERAL RECOVERY

                     COORDINATION PROGRAM WORKING?

                              ----------                              


                        TUESDAY, APRIL 28, 2009

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
              Subcommittee on Oversight and Investigations,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 10:07 a.m., in 
Room 334, Cannon House Office Building, Hon. Harry E. Mitchell 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Mitchell, Space, Walz, Hall, and 
Roe.

             OPENING STATEMENT OF CHAIRMAN MITCHELL

    Mr. Mitchell. Good morning, and welcome to the Subcommittee 
on Oversight and Investigations. This is a hearing on Leaving 
No One Behind: Is the Federal Recovery Coordination Program 
(FRCP) Working? This hearing will come to order.
    Thank you all for coming today. As I mentioned, the title 
of this hearing is Leaving No One Behind: Is the Federal 
Recovery Coordination Program Working?
    I ask unanimous consent that the statement from Lorrie 
Knight-Major be submitted for the record. Hearing no objection, 
so ordered.
    [The prepared statement of Ms. Knight-Major appears on pg. 
49.]
    Mr. Mitchell. Before we begin, I would like to introduce 
everyone to the Subcommittee's new Staff Director, Marty 
Herbert. Marty is a retired Army Lieutenant Colonel and a 
veteran of the Gulf War, Operation Enduring Freedom (OEF) and 
Operation Iraqi Freedom (OIF). He brings experience and a 
dynamic perspective to the challenges facing our Nation's 
veterans.
    With his addition to this Subcommittee and his leadership, 
we are going to continue providing the much needed oversight 
our veterans deserve and have come to expect from this 
Subcommittee.
    So on behalf of the entire Oversight and Investigations 
Subcommittee, welcome aboard, Marty.
    [Applause.]
    Mr. Mitchell. Time and again, we have heard stories of 
troops returning home from serving their country with no 
guidance and no support. Too often we hear of families carrying 
the burden of the servicemember's recovery and reintegration 
back into civilian life.
    On March 17th, this Subcommittee held a hearing on the 
Vision Center of Excellence (VCE). In that hearing, we heard 
testimony from three veterans, Travis Fugate, Gil Magallanes, 
David Kinney, all three seriously injured, all three seemingly 
lost in the bureaucratic maze without coordinated care.
    The stories of these heroes are part of the systematic 
problem affecting servicemembers and veterans across the 
country.
    Fortunately, a memorandum of understanding between U.S. 
Department of Defense (DoD) and U.S. Department of Veterans 
Affairs (VA) was signed on October 30th, 2007, establishing a 
Federal Recovery Coordination Program, FRCP. Federal recovery 
coordinators began working with patients in January of 2008.
    We are here today to examine the effectiveness of the FRCP 
and to assess if outreach has succeeded in bringing coordinated 
care to veterans who were injured prior to the FRCP.
    When a servicemember returns from combat with multiple 
injuries, we must ensure he or she has a single point of 
contact to help navigate the bureaucracy of DoD and VA. This is 
the reason the Federal recovery coordinators (FRCs) must have 
considerable authority as they navigate the system in ensuring 
the veteran and families receive component of care in their 
overall plan and all the benefits due to them.
    Oversight of this program is critical to ensure it is fully 
staffed and fully functioning. I look forward to hearing about 
what needs the VA has identified within the FRCP.
    To put these issues into perspective, we will hear from two 
veterans, Captain Mark Brogan, an Army veteran who suffered a 
severe penetrating traumatic brain injury, hearing loss, 
shrapnel wounds, and spinal cord injury while serving in Iraq 
in 2006. Captain Brogan receives care through the VA clinic 
back home in Tennessee, but he was never made aware of the FRCP 
when he came online in 2008.
    We will also hear from First Lieutenant Andrew Kinard, a 
retired Marine Corps veteran who was injured in Iraq 2\1/2\ 
years ago. First Lieutenant Kinard was referred to the FRCP in 
January of this year.
    Additionally, we will hear testimony from Sarah Wade and 
Cheryl Lynch, family members of injured veterans, who will give 
us an additional perspective on the FRCP, as well as the 
Blinded Veterans Association, who will discuss the impact the 
FRCP has had on those veterans with eye injuries.
    Although there is a solid foundation for the FRCP, there is 
still work to be done. I am anxious to hear from the Department 
of Veterans Affairs on how they plan to make the FRCP a program 
that veterans and their families can look for the care they 
need and how they plan to conduct the appropriate outreach to 
ensure all wounded veterans and their families receive the best 
care and no veteran with multiple traumatic injuries is left 
behind to navigate the huge health and benefit system alone.
    The Dole-Shalala Commission which set out recommendations 
for the care of wounded warriors said it is not enough ``merely 
patching the system as has been done in the past.'' Instead the 
experiences of these young men and women have highlighted the 
need for fundamental changes in care management and the 
disability system.
    The Commission emphasized that significant improvements 
require a sense of urgency and strong leadership. Now with 
Secretary Shinseki leading the VA, both the sense of urgency 
and strong leadership is present. And I am confident that we 
can work together to provide our wounded warriors with the 
coordinated care they deserve.
    I would like to thank all of our witnesses for appearing 
here today and thank you, both panels, for what you do for our 
Nation and for our veterans.
    Before I recognize the Ranking Member for his remarks, I 
would like to swear in our witnesses. I would ask that all 
witnesses raise their right hand from both panels, if they 
would.
    [The prepared statement of Chairman Mitchell appears on
pg. 32.]
    [Witnesses sworn.]
    Mr. Mitchell. Thank you.
    I now recognize Dr. Roe for opening remarks.

             OPENING STATEMENT OF HON. DAVID P. ROE

    Mr. Roe. Thank you for yielding, Mr. Chairman.
    Last month, this Subcommittee held a hearing on the Vision 
Centers of Excellence during which three veterans related their 
experiences at the VA and DoD and the care they received. 
However, upon hearing the witnesses' testimony, one of the 
things that concerned several of us was the apparent lack of 
any contact with the veterans from the Federal recovery 
coordinator team.
    I went down the line of the first panel and specifically 
asked that question and not one of the three severely injured 
veterans present had been in contact with or even knew if they 
had a care coordinator assigned to assist them.
    This is particularly troubling since the last Congress, 
this Subcommittee held a hearing on this very issue and Members 
were assured that the Federal recovery coordinator team was 
being staffed and that newly injured servicemembers were being 
contacted and that a team would be going back and contacting 
previously discharged, severely injured servicemembers to 
assist them with their needs and concerns as well. From the 
testimony we heard last month, this apparently was not 
happening.
    Mr. Chairman, I am grateful that you also felt this was an 
issue that needed immediate attention and that we are now 
holding this hearing today. I hope we hear better news about 
the program than what I heard last month and I want assurances 
that the witnesses who testified last month have now all been 
contacted by an FRC team and are now receiving the assistance 
they so richly deserve.
    I also want assurances from the witnesses here today that 
incidences like we heard last month are not going to occur 
again and that no other veteran will slip through the cracks of 
bureaucracy. It is bad enough that these veterans who fought so 
bravely for our freedom have lost their eyesight due to 
injuries that they received in battle, but to ignore their 
needs when they return home and more sorely need our help is 
inexcusable.
    Mr. Chairman, I would like to see in 180 days that the 
progress from this report or this Committee be sent to us, to 
the staff, and I think several of us would like to be around 
and be briefed and not be sitting here as I reviewed this 
information from 2 years ago in March. We want to get started 
with this. Last year, we were assured it was going to happen. I 
think 6 months, 180 days from now, we ought to have a report 
back. And I would certainly like to attend that.
    And thank you, and I yield back.
    [The prepared statement of Congressman Roe appears on pg. 
33.]
    Mr. Mitchell. Thank you.
    At this time, I would like to recognize Congressman Space.

           OPENING STATEMENT OF HON. ZACHARY T. SPACE

    Mr. Space. Thank you, Mr. Chairman, for calling this 
hearing.
    And I would like to welcome Marty as counsel to the staff 
and to the Committee as well.
    We have heard far too many stories from veterans and their 
caretakers who are stymied by the complex web of bureaucracy 
that stands in the way of the care and benefits our returning 
heroes have rightfully earned.
    Oversight of the care and coordination process for 
returning servicemembers is one of the highest priorities of 
this Subcommittee. Unfortunately, the written testimony of the 
witnesses here today indicates that many veterans are still 
unaware of this program.
    In talking to veterans in my district, I know many remain 
unaware of other benefits and services available to them 
through the VA and other service organizations. That is one of 
the reasons I recently introduced a bill, H.R. 1872, to 
streamline the transition process by sending our State VA 
departments electronic separation paperwork so they can reach 
out to returning servicemembers regarding available service and 
benefits.
    The program we are examining today plays an important role 
in navigating the VA system, but we must do a better job of 
reaching out to returning veterans to let them know about 
services like this.
    Mr. Chairman, I regret that I am going to have to leave in 
a few moments, but I hope to hear some of the testimony and 
look forward to learning more about the FRCP's plans for future 
improvement.
    I yield back.
    Mr. Mitchell. Thank you.
    I recognize Congressman Walz.

           OPENING STATEMENT OF HON. TIMOTHY J. WALZ

    Mr. Walz. Thank you, Mr. Chairman and Ranking Member Roe, 
for holding this hearing.
    And, of course, a special thank you to our witnesses. We 
are here today to hear from you, to do the most important job 
we do in Congress and that is to care for our warriors.
    There is not a person in all of southern Minnesota that 
does not want to provide the highest quality of care. It is a 
moral responsibility. Lots of people may say thank you, but the 
followthrough that we do to make sure that care is absolutely 
the best available is something we have to continue to strive 
for with absolutely zero mistakes in this.
    And I think I agree with my colleagues here. We have heard 
too many of these stories. We know that the VA provides 
excellent care. We know there are many things going right, but 
we also know there are far too many stories of lack of 
coordination, lack of care, being done the way it should be.
    So I cannot tell you how much I appreciate first of all 
your service to the Lieutenant and to the Captain and to the 
family members that are here, but also choosing to make it 
better for everyone else by taking time to come here today, by 
continuing to talk to about this. There is truly nothing more 
important that we do.
    And, of course, we are going to hear from Tom in a minute 
who my staff refers to as a force of nature in making this 
stuff happen. And it is that will and it is that drive to care 
for our veterans that is going to make us get it right. As I 
said, there is no greater job that we do here in Congress. So 
thank you for being here.
    And I yield back.
    Mr. Mitchell. Thank you.
    I ask unanimous consent that all Members have 5 legislative 
days to submit a statement for the record. Hearing no 
objections, so ordered.
    At this time, I would like to welcome panel one to the 
witness table. Joining us on our first panel is Captain Mark 
Brogan, an Operation Iraqi Freedom veteran from Knoxville, 
Tennessee; First Lieutenant Andrew Kinard, an OIF veteran here 
in Washington, DC; Sarah Wade, a spouse of an injured OIF 
veteran; as well as Cheryl Lynch, a mother of an injured 
veteran, as well as a traumatic brain injury (TBI) awareness 
advocate. Also joining us on the first panel is Dr. Tom 
Zampieri, Director of Government Relations for the Blinded 
Veterans Associations.
    And I ask that all witnesses stay within 5 minutes of their 
opening remarks. Your complete statements will be made part of 
the record.
    I would now like to recognize Captain Brogan.

STATEMENTS OF CAPTAIN MARK A. BROGAN, USA (RET.), KNOXVILLE, TN 
  (OIF VETERAN); FIRST LIEUTENANT ANDREW KINARD, USMC (RET.), 
   WASHINGTON, DC (OIF VETERAN); SARAH WADE, CHAPEL HILL, NC 
(SPOUSE OF OEF/OIF VETERAN); CHERYL LYNCH, PACE, FL (MOTHER OF 
    INJURED VETERAN AND TBI AWARENESS ADVOCATE); AND THOMAS 
  ZAMPIERI, PH.D., DIRECTOR OF GOVERNMENT RELATIONS, BLINDED 
                      VETERANS ASSOCIATION

        STATEMENT OF CAPTAIN MARK A. BROGAN, USA (RET.)

    Captain Brogan. Mr. Chairman and Members of the 
Subcommittee, I am honored to appear before you today to share 
my experiences for the benefit of other veterans such as 
myself.
    I served as a Captain in the U.S. Army assigned to the 
172nd Stryker Brigade, deployed to the Iraq theater in 2005 and 
2006.
    On April 11th, 2006, while leading the patrol in a market, 
a suicide bomber walked around a corner behind myself and two 
of my soldiers, killing one instantly.
    I received severe injuries to include a penetrating 
traumatic brain injury from shrapnel entering the brain, a 
nearly severed right arm, profound hearing loss, and an 
incomplete spinal cord from a piece of shrapnel piercing the 
spinal cord.
    My wife traveled from Alaska, where we were stationed, to 
Walter Reed and immediately took charge of the administrative 
process. I continued my recovery at Walter Reed as an inpatient 
until July of 2006 at which point, I was transferred to the 
James Haley VA polytrauma unit in Tampa, Florida.
    Upon my discharge from Tampa, I returned to my home in 
Tennessee. I would continue my rehabilitation for another 2 
years and it will most certainly be a lifetime process.
    During this time, there has been a continual confusing maze 
of systems. Having had a significant traumatic brain injury, my 
wife has carried the bulk load of my administrative needs. She 
has been my personal recovery coordinator with no experience in 
navigating the massive bureaucracy.
    My experience with the VA and DoD is no different than many 
of the stories other soldiers have reported, lost paperwork, 
confusing processes, and a lack of information. We cannot point 
to one person to lay blame on because there was no one person. 
It was on my wife to make sense of the mess.
    This brings me to the most important point I want to convey 
in this testimony. Despite the efforts of good intentioned 
people and unfortunately some disgruntled, disenfranchised 
people also, this mostly has been a journey of blind 
exploration.
    My wife has said from the beginning they will not tell you 
about the process. You just have to stumble upon it and then 
demand it. This has proven true time and again.
    The creation of the recovery coordinators is a brilliant 
idea even as I am unfortunately yet to have the privilege of 
their services.
    One of the best examples of gaps in the system between DoD 
and VA due to the lack of central information coordination 
involves my transfer from Walter Reed care to VA care and 
return back to Walter Reed.
    In October of 2006, I returned to Walter Reed to receive my 
cranioplastic surgery, a procedure to replace a missing half of 
my skull. I returned to find that my name was mysteriously no 
longer on record to have this procedure. To my amazement or 
expectation based on my experience thus far, no one in 
neurosurgery, neurology, or any other department could give me 
any solid answers to why this had happened. We had no singular 
contact person to inquire with. It took us a full month to 
finally have the surgery scheduled and all the necessary 
preparations made.
    I have had a total of 13 social work representatives within 
the VA and DoD systems working on my case, none of whom 
communicated regularly or jointly to make sure all the bases 
were covered.
    Once I returned to my home in Knoxville, Tennessee, my case 
was transferred from the Tampa VA to the hospital responsible 
in the Knoxville area. The local VA clinic in Knoxville handled 
my primary care appointments. However, the clinic in the area 
did not provide the extensive amount of continued therapy I 
required for my TBI, spinal cord injury, and post-traumatic 
stress disorder (PTSD).
    There is a civilian rehab in Knoxville, Patricia Neal Rehab 
Center, that specializes in all of the injuries. The obvious 
solution was to be allowed to attend this facility. However, it 
was just not that simple. TRICARE does not cover cognitive 
rehab, so that was not an option.
    My wife contacted several people at the VA and was passed 
around the endless loop of I do not know. She was successful 
after much hassle and through the VA fee-basing program, I was 
able to attend an extra year and a half worth of therapy.
    I received physical, occupational, speech, and cognitive 
therapies. I attended a specialized day treatment program for 
TBI and I also received care from a neuropsychologist who 
specializes in TBI and PTSD.
    I am shocked it was so difficult to get the care. 
Coordination for the care has been the burden of my wife from 
day one. Only recently has the VA created a polytrauma clinic 
at the closest VA hospital. The only problem is their specialty 
is medical information, not benefits. And when I ask, it turns 
into the let me forward you to the next person in the loop and 
the vicious cycle repeats itself.
    As you can see from my exhausting journey, the Federal 
Recovery Coordination Program would have been the best thing 
that could have happened to me and my wife. I hope that my 
experiences I have shared will shed some perspective on how 
much the program really will impact individuals such as myself.
    One recommendation I have for the coordinators and any 
other social workers within DoD/VA system is a boot camp, so to 
speak, for coordinators to ensure info is learned universally 
for all coordinators and social workers.
    I come before you today with no experience with the Federal 
Recovery Coordination Program. I have only recently, within the 
last 2 weeks, become aware of the program through a non-DoD or 
VA party.
    From my subsequent research of the program's intentions, I 
believe it is an excellent idea as the disconnects I 
experienced and the unending circle of I do not know, let me 
connect you with party X, may have been avoided.
    In summary, my personal answer to is the Recovery 
Coordination Program working is not simply due to the fact not 
one single person has advised me of such a beneficial program. 
I believe had I been aware and able to receive the resources, 
it would have certainly been a huge stress relief for myself 
and family.
    I am eagerly awaiting the care this program intends to 
provide pending it does not follow the frustrating paradigm we 
have been accustomed to. I appreciate this opportunity to 
submit testimony to the Committee on Veterans' Affairs 
Subcommittee.
    On behalf of my fellow wounded warriors, I would like to 
thank you for all the hard work and service you provide. I hope 
that my testimony will contribute positively in aiding my 
fellow brothers. Thank you. Captain Mark Brogan.
    [The prepared statement of Captain Brogan appears on pg. 
33.]
    Mr. Mitchell. Thank you very much.
    I would now like to recognize Representative Bob Inglis of 
South Carolina to introduce our next witness, First Lieutenant 
Andrew Kinard.
    Mr. Inglis, you are now recognized.

              OPENING STATEMENT OF HON. BOB INGLIS

    Mr. Inglis. Thank you, Mr. Chairman.
    And it is a great honor to introduce to you Andrew Kinard, 
who is so reflective of America's best. This is a guy who is 
the son of a very successful physician in Spartanburg, South 
Carolina, wonderful mom, family that loves him, could have done 
anything, wanted to go into military service, went to Naval 
Academy, wanted to be a Marine, became a Marine, wanted to go 
to Iraq. And shortly after arriving there, perhaps targeted 
because he was an officer, an explosion cost him both legs, but 
has not cost him his spirit. And that is what is amazing to me 
about Andrew.
    He will tell you about the many surgeries. You have got to 
keep up to make sure to keep up with the number. They are 
ongoing and there are lots of them. But I hope he tells you 
some about the incredible way God's grace made it possible for 
him to be here and alive and how that has played out in a 
number of people who were the means of God's grace in saving 
his life and restoring him as he appears before you today.
    I have tried everything I could to get him to come work in 
my office, but I think that what he has done is he has figured 
out what my children say to me is, Dad, yours is the only 
interesting job in the office. And so I think that some day, he 
may have this job. But I am safe for at least 3 years because 
he is going to Harvard Law School in the fall and so I am safe 
for at least 3 years.
    But it is my great honor to introduce to you Andrew Kinard.
    Mr. Mitchell. Thank you.

          STATEMENT OF FIRST LIEUTENANT ANDREW KINARD,
                          USMC (RET.)

    Lieutenant Kinard. Thank you, Congressman Inglis, for that 
warm introduction.
    Chairman Mitchell, Congressman Roe, Members of the 
Subcommittee, I am pleased to appear this morning before you to 
discuss my views of the efficacy of the Federal Recovery 
Coordination Program.
    I was referred to an FRC on January 28th of this year in 
order to be assisted with specific issues that I had 
encountered while transitioning from active to retired status. 
Had I known earlier about the benefits of the FRC Program, I 
would have requested an FRC much sooner.
    In order to best explain how my FRC has been a benefit, I 
want to share with you a brief summary of my recovery.
    I was injured in Iraq 2\1/2\ years ago and retired from 
active service just last month. While I was recovering in the 
hospital, I had the advantage of constant attention from 
doctors, nurses, and other medical staff.
    When I was discharged from the hospital to continue 
physical therapy and eventually transition out of the Marine 
Corps, I was responsible for keeping track of all the different 
medical staff and their individual responsibilities on my own.
    I had a medical case manager, a nonmedical case manager, a 
social worker, a medical board case manager, a physical 
evaluation board liaison officer, a Navy Marine Corps liaison 
officer, a wounded warrior regimen case manager, and a Marine 
Corps patient administration team.
    The number of support staff is roughly the same for most of 
the wounded servicemembers and catastrophically wounded 
servicemembers will often even have more. I recall Captain 
Brogan mentioning that he had 13. The numbers of case managers 
that are out there is overwhelming at times to even some of the 
most aware recovering servicemembers.
    But with so many resources available to assist in the 
recovery, one might ask the question why do we need yet another 
program. Seriously injured servicemembers need the Federal 
Recovery Coordination Program for two reasons, accountability 
and continuity of care.
    The net result of the number of support staff is that there 
is a broad diffusion of responsibility among caseworkers and 
the recovering servicemember loses confidence in the 
Government's ability to maintain accountability of his care.
    Each caseworker has a specific role in that servicemember's 
recovery and the burden of responsibility falls on that 
servicemember to keep track of which case manager provides each 
service.
    Essentially what happened to me was as my case managers 
would come and introduce themselves, I would end up with a 
fistful of business cards with the instructions, hey, call me 
if you need anything, and then I was left wondering, okay, 
well, I do not even know what I need to ask what I need or not.
    The assignment of an FRC provides the recovering 
servicemember with a single point of contact for decisions 
regarding his care.
    With respect to continuity of care, the long list of case 
managers and other support staff that I have previously 
mentioned all fall within the Department of Defense health 
system. All those eight or nine or ten case managers that I 
mentioned to you are all within DoD.
    Now that I have transitioned into the VA system, I have a 
whole new list of case managers to keep track of, the ones from 
the DoD because I am still eligible for TRICARE benefits and 
now the VA as well. New doctors will still be assigned. And 
rather than veterans having to navigate a new health system 
with no institutional memory of their medical history, an FRC 
can ensure that continuity of care between the DoD and VA.
    In summary, I believe that the Federal Recovery 
Coordination Program, under the leadership of Dr. Guice, should 
continue its mission of providing comprehensive coordination of 
case management to those servicemembers who have been most 
severely injured.
    Particular effort should be made to reach back to those who 
were injured earlier in the war. A common mistake is assuming 
that just because the veterans have been injured several years 
ago means that all their problems are fixed. That is in a lot 
of cases to the contrary.
    Recovering from any traumatic injury is difficult at best, 
but I think the worst casualty of all is being forgotten.
    Chairman Mitchell and Members of the Subcommittee, thank 
you for the opportunity to testify before you today. I look 
forward to answering your questions.
    [The prepared statement of Lieutenant Kinard appears on
pg. 35.]
    Mr. Mitchell. Thank you very much.
    Sarah Wade.

                    STATEMENT OF SARAH WADE

    Ms. Wade. Chairman Mitchell, Ranking Member Roe, Members of 
the Subcommittee, thank you for the opportunity to speak to you 
today about our experiences with the DoD/VA Federal Recovery 
Coordination Program.
    My name is Sarah Wade, wife of Army Sergeant retired Ted 
Wade.
    My husband joined the Army during the summer of 2000 and 
following the attacks of September 11th, he was called on to 
serve first in Afghanistan and later on in Iraq.
    On Valentine's Day 2004, his Humvee was hit by an 
improvised explosive device. Ted sustained a severe brain 
injury. His arm was completely severed above the elbow, 
suffered multiple broken bones, shrapnel injuries, as well as 
other complications, and months later was diagnosed with post-
traumatic stress disorder.
    He remained in a coma for about 2\1/2\ months. Withdrawal 
of life support was considered, but thankfully he pulled 
through.
    After the battle for his life was won, the war for benefits 
and care began and that continues on today. Due to the severity 
of Ted's brain injury, he is sometimes unable to fight for 
himself, so the struggle has become mine.
    I was neither prepared for this mission nor trained to 
serve in the many roles I have been expected to. I am often 
consumed 24 hours a day by my responsibilities which have left 
no time for me to return to school, full-time work, or have a 
life of my own.
    More than 5 years later, my schedule continues to be hectic 
and we still struggle to maintain a reasonable standard of 
living. Though the journey has been a nightmare at times, 
people have also listened and responded.
    After the situation at Walter Reed imploded in February of 
2007, I was fortunate to have the opportunity to be a part of 
creating some solutions. I was invited to give testimony to the 
Dole-Shalala Commission and make a presentation to the DoD/VA 
Senior Oversight Committee or SOC as it is known.
    Among other things, I explained that Ted needed a case 
manager for his case managers, someone to coordinate his 
amputee case manager, military severely injured center, OEF/OIF 
coordinator, polytrauma coordinator, psychiatric social worker, 
soldier family management specialist, and TBI case manager. I 
think you all probably hear a theme here.
    I wanted someone to take care of the administrative items 
on my daunting to-do list, not just point me in the right 
direction or hand me an 800 number or business card.
    Ted needed a case manager with a smaller patient load, 
someone that understood his DoD, Medicare, VA benefits and 
could coordinate them with the fee-basis care he received at a 
private practice in our community, but more importantly he 
needed continuity and lifelong assistance. Nine months later, 
we had an FRC.
    Admittedly I have been the biggest support of the FRC 
Program and at times, its harshest critic. This is because we 
have experienced two distinctly different programs. When the 
FRCs first came online, I could not have been happier. The 
woman to which Ted had been assigned was everything we had 
wished for and more. But just like a series of other programs 
that had been promising in the past, it was short-lived.
    Four months later, she was gone. Ted was assigned a new FRC 
and we had to start from square one again like we had done 20 
times before. My husband was devastated because he had truly 
believed that things were going to be different this time.
    In my search for answers, I talked to several other 
families involved with the program only to discover that many 
of them were on their second FRC as well. It was clear the 
program was starting to falter because it simply could not work 
with such a high turnover rate.
    Out of desperation, I e-mailed everyone I could think of to 
make sure they were aware of this issue. I received a call back 
from the Deputy Under Secretary of Defense, Dr. Lynda Davis, 
who asked to meet with Ted and I that night on her way home 
from work and invited someone from VA to come along as well.
    Ted and I were very candid with her about our concerns and 
she seemed very receptive to our ideas. The following day, I 
received another phone call from the Deputy Secretary of 
Veterans Affairs, Mr. Gordon Mansfield. He listened to what Ted 
and I had to say and he immediately took action.
    The DoD/VA FRC Program came under new leadership last 
summer and the Director, Dr. Karen Guice, now reports directly 
to the Secretary of Veterans Affairs. From what we have seen, 
she has been receptive to feedback, committed to problem 
solving, and has continued to reevaluate the program.
    Because the FRC Program Director currently has high 
visibility and access to the leadership, she has leveraged to 
both resolve individual problems as they arise, but also 
identify systemic issues and recommend changes at a level where 
they may be implemented.
    Though there are still some glitches, I believe it is 
important for DoD and VA leadership to promote what is working 
and continue to provide the willingness and support needed to 
guarantee the long-term success of this program.
    We have seen a string of other resources crop up only to 
wilt or die off due to change of focus or sponsorship over the 
years. For once, we need DoD and VA leadership to see just one 
through.
    The FRC Program is unlike any other assisting severely 
injured servicemembers and veterans. All the other support 
systems are specific to a branch of service, facility, or a 
particular injury. They can assist with specific needs, but are 
unable to coordinate the big picture or are only involved for a 
defined period of the veteran's recovery.
    An FRC is able to connect at bedside after the injury, has 
the ability to follow them as they move to other facilities or 
systems for rehabilitation through their transition to civilian 
live, veteran status, and beyond.
    This type of continuity allows the veteran and FRC to build 
a strong alliance, but also provides a single point of contact 
that has a complete understanding of all their benefits and a 
comprehensive life plan.
    My husband will continue to face significant challenges for 
the rest of his life as a severe TBI is never static but a 
progression of peaks and valleys. Veterans like Ted need 
support that will be around as long as the injuries they 
sustained in service to their country.
    Just like he needed a team in the military to accomplish 
the mission, he needs a team at home for the longer war. I hope 
today we can all work together to identify not only the needs 
of the veterans but discuss what the needs are of the FRC 
Program to accomplish this lifelong mission.
    Mr. Chairman, thank you again, and I look forward to 
answering any questions.
    [The prepared statement of Ms. Wade appears on pg. 36.]
    Mr. Mitchell. Thank you very much.
    Cheryl.

                   STATEMENT OF CHERYL LYNCH

    Ms. Lynch. Chairman Mitchell, Ranking Member Roe, and 
Members of the Subcommittee, thank you for the opportunity of 
speaking with you today.
    My name is Cheryl Lynch, mother of PFC Christopher Lynch, 
U.S. Army retired, who suffered a traumatic brain injury on 
July 13th, 2000, while on training exercises in France. I am 
also the founder of a support organization for American 
veterans with brain injuries and their families.
    As a result of my personal experience and daily contact 
with many other families, I have a unique perspective on the 
needs and obstacles family caregivers face as we all attempt to 
help our loved ones rehabilitate from these life-altering 
injuries.
    It is with over 8 years experience of working with and 
sometimes against the bureaucracies of the DoD and VA as well 
as other Federal, State, and local agencies that I address the 
Committee today.
    Due to my limited time, this verbal testimony is a 
condensed version of what I submitted for the record.
    First I would like to recognize the positive advancements 
that have been made since my son's injury. I am very impressed 
with the many new initiatives and progressive programs 
currently available to our wounded.
    Unfortunately, however, once outside of a polytrauma 
setting, rehabilitative options and benefits are still in a 
maze, one that is riddled with bureaucratic obstacles and dead 
ends. Family members are still left to piece together services 
in an attempt to continue their loved ones' recovery.
    In order to fully appreciate my recommendations, you must 
also hear at least some of our story. Following Chris' injury, 
I brought my son to our home in Florida. Since that time, I 
have been Chris' caregiver. I knew my job would be difficult, 
but I did not know that I was also going to be giving up my 
business to have a life-long career of being a coordinator and 
mediator of case managers, medical needs, insurance issues, and 
VA benefits.
    At any given time, we had a multitude of case managers and/
or social workers who were assigned to my son. Unfortunately, 
each had their own area of specialty or fell under different 
geographical regions of the VA.
    In my opinion, the FRC Program is one of the most 
beneficial programs offered in recent years. However, the 
program is still evolving and after speaking with many families 
who have been afforded the services through the FRC Program, it 
seems not all FRCs are created equal.
    Some families have expressed that they rarely communicate 
with their coordinator and a few families are not even aware 
they have an FRC as it is hard to distinguish case managers 
from care managers.
    Conversely, some families have seen effectiveness of FRCs 
to serve as a compass for the maze where an FRC has actually 
been able to provide the necessary oversight to develop and 
implement a veteran's recovery plan.
    Others have been able to call on their FRCs in times of 
crisis or when bureaucracy has gotten in the way. Some of these 
variances are due to individual needs of the families, but it 
is also due to the nature of the new program trying to catch 
its stride.
    In closing, although I understand many enhancements are 
underway, I would like to make the following suggestions in 
regards to the FRC Program.
    An FRC must have injury-specific knowledge and/or training 
prior to case management, especially for those with brain 
injuries and mental disorders. These injuries have long-
lasting, ongoing effects on an individual's life and family 
members and veterans cannot be responsible for educating yet 
another case or care manager about the residual impairments of 
an injury.
    The FRC Program must continue to have the capability of not 
only mediating DoD and VA benefits, it would also be extremely 
helpful if they could assist in the coordination of State and 
community resources.
    With a limited number of individuals serving in the FRC 
capacity, it is apparent not everyone who could benefit from 
their services is assigned one. Current staffing levels may be 
insufficient to address the needs of both the currently 
assigned and additional cases that need to be referred into the 
program.
    Steps must be taken for the FRC Program to look back and 
find those who have been struggling. The common misperception 
that if your loved one was injured years ago, then all your 
problems have been resolved is false and very dangerous.
    Individual outcomes vary and the need for FRC care 
management must be assessed not only on the severity of the 
injury but on the family's circumstances and risk variables of 
the individual veterans.
    It is imperative to promote visibility of the FRC Program 
and streamline the referral process. Veterans may, in fact, 
outlive an FRC, therefore, care cases must be accurately 
documented to assure the lifelong continuity for the veteran.
    There is one last comment I would like for you to consider. 
I am a 54-year-old mother. If something were to happen to me, 
who will know enough about my son's individual difficulties, 
medical needs to continue his care? Who will be able to act in 
his best interest or defense to assure he receives his entitled 
benefits? Who would be able to put the proper supports in place 
for my son to not end up on the streets, institutionalized, or 
even worse?
    I believe the answers to these questions lie in the 
potential of the FRC Program and I am very pleased that the 
Committee is looking at ways that may improve the FRC Program.
    We cannot change the past, but possibly the Committee has 
the ability to change what the future holds for my son and 
other injured veterans and their families.
    Thank you.
    [The prepared statement of Ms. Lynch appears on pg. 37.]
    Mr. Mitchell. Thank you.
    Dr. Zampieri.

              STATEMENT OF THOMAS ZAMPIERI, PH.D.

    Dr. Zampieri. Yes. Thank you again for inviting me to 
testify twice in a month. I must be doing something right or 
wrong depending on which side of the table you are at.
    But on behalf of Blinded Veterans Association, it is an 
honor to be here with this panel of veterans like last month 
with the three blinded servicemembers who told you their 
stories.
    You know, it is sort of interesting. I do a lot of military 
medical history and if you think this scares you, you have got 
to go back and look at the number of injured that came back 
during the Korean war, which I included in my testimony. You 
know, we at times seem to be like totally overwhelmed with what 
we are trying to deal with.
    But if you look at the Korean war, in a 3-year period, 
55,380 came back wounded in just 3 years. And we have got 7 
years into the war and 45,000 roughly injured or wounded or 
medically required evacuation. And we are having these 
problems. It is sort of like I shudder to think if we had had 
this huge number of injured earlier in this.
    You know, everybody here has touched on the same thing of 
when I go out to Walter Reed or Bethesda or I have been down to 
Brooke Army Medical Center, there is more social workers, case 
managers, DoD liaisons. It is just unbelievable. And, yet, each 
person seems to be ``doing their own thing.''
    And the Federal recovery coordinators, you know, the 
concept of that was to bring together one person who would 
manage everything and I think at times, they have even been 
overwhelmed with the fact that they are probably spending as 
much time just trying to communicate to all these other various 
people that are involved in these cases.
    One of the things that I know that the other veteran 
service organizations would want me to throw into this that has 
not been mentioned before, but I think is a critical component 
to fixing any of this, is the fact that you have got to have a 
DoD/VA electronic exchange of the medical records and it needs 
to include the DD-214 and the military occupational background 
of the servicemembers.
    If people cannot find the records of somebody who comes 
back for follow-up surgery, you know, it is just amazing. You 
know, oftentimes I hear about individuals who will write and 
they have notes put into their VA records and then when they 
get back into the military system, nobody knows what those 
notes are.
    And it is critical that the inpatient records are fully 
exchanged in this transmission of information. Currently it is 
primarily outpatient electronic records that are accessible. 
There are outpatient medications. There are outpatient problem 
lists, the history of allergies, their outpatient labs, 
outpatient radiology reports, but what is critical, and last 
month, this came up when Travis Fugate testified, is the 
surgical records, the inpatient surgical records, the inpatient 
diagnostic tests and all those things to avoid repetition of 
tests being redone.
    The other thing that I find frustrating in this is that 
every time I seem to pick up a new thing from either the Army 
or Navy or Air Force and it just hit home just the other day 
preparing this testimony, I found on the AMEDD, Army Medical 
Department news line, they announced that we are reconfiguring 
again. The Wounded Warrior Transition Command Office is now 
merging with the Warrior Transition Unit which is now merging 
with the Army W2 Program, the Wounded Warrior Program to 
facilitate and improve communications and cooperation. And I 
said, you know, wait a minute. Here we go again.
    You know, and one of my things in my Ph.D. program that was 
one of the most interesting courses I ever took was how do you 
develop policy in government. And one of the most difficult 
things is when you do incremental layers, this is what happens. 
You have somebody with 13 different case managers or 10 
different case managers or somebody like Sarah or the mom who 
says who do I really find that answers this question.
    I think also, you know, it is easy to identify that one of 
the things is there is almost with the Federal recovery 
coordinators, you have got to have a medical model person that 
is coordinating the rehab and stuff and a benefits person that 
takes unique charge of handling the benefits questions and 
helping with whether it is insurance, TRICARE, or VA.
    And so there are a bunch of recommendations that are from 
The Independent Budget that I have included in here because I 
thought that they had covered this extensively.
    And I will be willing to answer questions now. Thank you 
again for the opportunity to testify.
    [The prepared statement of Dr. Zampieri appears on pg. 40.]
    Mr. Mitchell. Thank you very much.
    I want to thank all of you for your testimony.
    I have some questions and then we will ask each Member to 
ask some.
    My first question is to Lieutenant Kinard. How would you 
characterize the handoff when you left DoD care and entered the 
VA care?
    Lieutenant Kinard. Sir, when I retired from the Marine 
Corps about a month ago, I was enrolled in the FRC Program. And 
she and I discussed specific aspects of my transition to 
include my move of geographic location from Washington, DC, to 
Boston this summer, how I will coordinate my case management.
    I am at a terminal point in my recovery in the sense that I 
am not undergoing continuous surgeries all the time. But should 
the need arise for me to seek additional medical care, where am 
I going to get that? Am I going to get that through TRICARE, 
because I am still eligible for TRICARE benefits by virtue of 
my retiring, or am I going to get that care through the 
Veterans Administration?
    And so she and I had sort of talked those out, those 
scenarios, and her help has been very, very good because she is 
at both levels of the DoD and VA and gives me that opportunity 
to sort of say, hey, you know, you bring to bear all of the 
health care benefits that the Government offers, so let us 
really talk about how we can sort of hash those issues out.
    And also on another note, yesterday I went over to the 
Washington VA center and met with my OIF/OEF coordinator there 
at the VA. And I had a very positive experience with him 
because, you know, say, for example, I did not have the FRC and 
I just enrolled in the VA as a returning servicemember. You 
know, he really walked me through all the steps, walked me 
through the enrollment. And my experience at the VA yesterday 
was very positive.
    So if I did not have the FRC at all, that was good. But 
having an FRC, I am telling you, gives me peace of mind.
    Mr. Mitchell. Thank you.
    Sarah, you testified on your experience at last year's 
hearing. Can you please discuss what changes you have seen in 
the FRC Program to date from the time you first talked to us 
last year?
    Ms. Wade. I think one of the most important things that we 
have seen is that, it is one of the things I included in my 
testimony today, that the FRC Director is reporting directly to 
the Secretary of Veterans Affairs.
    And we have actually run into a couple instances where 
there were delays in contracts with fee-basis care or getting 
bills paid, that sort of thing.
    And we were able to climb the ladder and really exhaust all 
administrative possibilities first, but Ted's FRC was able to 
call directly to the Director and say, you know, I am running 
into this problem, can you do something. And no exaggeration, 
the following day, a contract was approved and Ted was ready to 
move into the next phase of his rehabilitation.
    So one of the things that I have seen that has been 
extremely helpful is the ability to speed up some of those lags 
in care that we have seen in the past.
    Mr. Mitchell. Very good.
    One other question. From a spouse's perspective, what areas 
still need to be focused on to continue to improve this FRC 
Program?
    Ms. Wade. Well, I think for someone like my husband whose 
needs are very intensive, it is important to keep the, I think, 
caseloads at a minimum. I think it is very difficult to put a 
number on what those caseloads should be because I think every 
individual case will be weighted differently depending on what 
the level of needs are.
    But I think that one of the most important things that can 
happen is to completely reevaluate the program and the 
individual FRCs.
    And so, for instance, I think different families have 
different needs. Some people want to just have someone there 
when they need to go to them. Other people would like somebody 
just to take the reins and take care of everything.
    And I think it is very important to constantly give the 
family member the opportunity to give feedback, to comment on 
that person's management style, but also to stay in tune with 
what the needs are of that veteran, but the family member as 
well, and to incorporate the family member into the life plan.
    Say I want to go back to school. I might need more 
assistance for Ted, for someone else to be his care provider 
while I am in school. And so I think it is very important to 
keep a pulse on what is happening in the household with the 
children, the spouse, whoever, because that is going to change 
what the veteran needs.
    Mr. Mitchell. Thank you. I have exhausted my question time. 
Welcome back.
    Dr. Roe.
    Mr. Roe. Well, first of all, there are four remarkable 
people out here. And I have really appreciated you all coming 
and sharing your testimony.
    And also congratulations, Lieutenant Kinard, on going to 
law school. And please remember, do not go to the dark side and 
sue doctors. Okay? Appreciate that.
    One of the things, and I will bring this up, and Captain 
Brogan is actually from a town very close to where I live, I 
will just read a paragraph. The next testimony, I think, 
summarizes what the problem is.
    ``And within the overall framework of care coordination, 
each client's particular needs and goals, the FRCs work with 
military liaisons, member of the services, Wounded Warrior 
Program, services recovery care coordinators, TRICARE 
beneficiary, counseling assistant coordinators, VA vocational 
and rehabilitation counselors, military and VA facility case 
managers, VA liaisons, VA specific care managers, Veterans 
Health Administrations (VHA), and VA OIF/OEF case managers, 
Veterans Benefits Administration (VBA) benefits counselors, and 
others.''
    I have a headache reading all that. And it is no wonder. I 
know from the practice of medicine over the years somebody had 
to be in charge and lead the show. And that is exactly what is 
needed here. You need someone who can step up.
    And, Ms. Wade, I know you have put a college career on hold 
as I understand in taking care of your family. And I think what 
you said, you had a case coordinator that was just 
unbelievable. Terrific, had your head in the right direction. 
That changed.
    I think the number of people that, and as I read Dr. 
Zampieri's entire testimony, and all very compelling, there are 
not that many that would need that. We can do this. And I do 
not know and I think your point was very well made about how 
many--each person, where if you go back to school, Ted's needs 
may be different. And if you go back to work, your son's needs 
may be different. And we need someone to help you coordinate 
that.
    So I do not know. You did not put a number down. Obviously 
it would vary. But do you have any vague concept about how many 
people you think a coordinator could handle?
    Ms. Wade. Again, I think that is really going to depend on 
the level of need of the individual. For instance, my husband's 
brain injury case manager spends in terms of face time, she 
spends 2 to 3 hours a week with my husband. And that is just 
his brain injury case manager. That is not the person that 
coordinates all the other injuries.
    So, you know, and she spends a lot of other time on the 
phone with other people. So with that said, you could have 
someone that could potentially only handle, I do not know, 
maybe 20 cases.
    But, again, I think it is important to let the FRC probably 
decide when they are at their maximum because some families, as 
I said, like to just have someone there when they need a fire 
put out. Other people like that person to take the reins.
    Do not get me wrong. I know we do have a lot of case 
managers, but I do think it is also important to have someone 
with expertise in amputee care and someone with expertise in 
TBI. But I think it is important to let that FRC decide what 
their load is and what they are able to manage.
    Mr. Roe. Dr. Zampieri, how many wounded warriors are now 
being served by the FRC Program? Do you have a number? Do you 
know?
    Dr. Zampieri. Unfortunately, I do not. I think I better let 
the next panel answer that. I know it has changed some since 
last November. As the number of FRCs has increased, I think 
their caseloads or numbers have increased.
    One of the things I found interesting is that, you know, 
the total number of severely catastrophically injured that have 
actually gone through the polytrauma centers is less than 850.
    Mr. Hall. Would the gentleman yield for a second?
    Mr. Roe. Yes.
    Mr. Hall. Two hundred and fifty-seven veterans are 
currently enrolled in the Federal Recovery Coordination Program 
according to our information.
    Yield back.
    Mr. Roe. Thank you.
    One of the things before we finish is I am from a 
generation of soldiers who are forgotten, Vietnam era. And I 
can assure you that this panel will not forget your needs. And 
we are going to continue to find out if your needs are being 
met.
    And I know, Captain Brogan, you have been through an 
amazing recovery. And are there any things you can see? I think 
you just heard about this program what, a couple weeks ago? 
Could you expound on that?
    Captain Brogan. That is correct. I just recently, probably 
2 to 3 weeks ago, heard of the program. It was through a friend 
in a nonprofit organization.
    It is interesting that when I contacted one of my social 
workers actually through the AW2 Program, I said, hey, have you 
heard of this program and she said, yeah, we are training them. 
And I said that is great. I am really glad you let me know 
about it.
    So it is just frustrating to know. I believe this program 
has been around for at least a year and, of course, you know, 
it is an ongoing process all the time. And, you know, here we 
had no idea.
    Mr. Roe. Thank you, Mr. Chairman.
    Mr. Mitchell. Thank you.
    Congressman Walz.
    Mr. Walz. Thank you, Mr. Chairman.
    And to each of you, I cannot tell you how humbling it is to 
sit here before you. We sit here not as individuals but as 
representatives of 700,000 people in our respective districts. 
And to hear your stories is truly humbling.
    And, Captain Brogan, is your wife here by any chance?
    Captain Brogan. I am sorry?
    Mr. Walz. Is your wife here today with you?
    Captain Brogan. She is not.
    Mr. Walz. Well, pass along our thanks and I have to tell 
you our apologies. I cannot tell you every time we hear one of 
these stories how deeply embarrassed I am. And I approach this 
from being a Representative but also having spent 24 years in 
the military and spending that time as a First Sergeant and 
Sergeant Major with no other responsibility than to care for 
our veterans.
    So when we hear each of your stories, I think, Ms. Wade, 
you summed it up right and that is the approach that we take 
here. We will be their strongest supporters and their harshest 
critics because of that. And the issue you were hitting on is 
one that I think runs through as a theme and, Lieutenant, you 
brought it up, too, this issue of continuity of care. It keeps 
coming back and coming back and coming back.
    And there are members sitting behind you who represent 
veterans service organizations, as Ranking Member Roe said, 
from other conflicts and we have never gotten this issue right 
of seamless transition. And I talk about it so much now I know 
when the VA and DoD see me coming, they are like, oh, God, it 
is Congressman Seamless Transition again.
    At noon, I am going to have the opportunity to sit down 
face to face, one on one for an hour with Admiral Mullen, the 
Chairman of the Joint Chiefs, who takes this issue very 
seriously and understands here systemically we are getting this 
wrong in the continuity of care.
    And it is causing all kinds of issues and when I hear it 
especially from the family members, and I am glad to see that 
Ms. Obama is focusing on military families and I have spoken to 
her about this, this responsibility of care that you provide 
out of love and dedication to your families is incredible. But 
we share in that. Your loved ones were injured in defense of 
this Nation in carrying out what we asked them to do.
    So I keep coming back to this issue that asking you to put 
that career on hold, especially for financial reasons, is 
absolutely unacceptable, as is that there is a lack of care 
there.
    So my question to each of you is, and I will take this 
directly there, if you could sit down with the Chairman of the 
Joint Chiefs, what do they need to do to make sure this 
happens? What does Admiral Mullen need to do to make sure that 
this is getting there in that transition from DoD to VA? If 
anybody wants to tackle that, I will pass along your words.
    Ms. Lynch. One of the problems that I have seen is while 
active duty, the active-duty servicemember at that point goes 
into a VA polytrauma setting and once the coordination of care 
leaves that polytrauma center back to the active duty, there is 
not a communication of what is going to happen beyond that.
    Once they are in that VA polytrauma system, the 
coordination for them going home should actually be introduced 
at that point, not wait until it is passed off to another and 
then passed off to another, and then eventually home.
    We have regional issues and that has been a lot of our 
problem is polytrauma is in VISN 16. We live in VISN 8. And the 
communication of the care never transpires. This is what 
happens for a lot of the brain injuries who are going to one of 
the four polytraumas. Most of them do not live anywhere near 
those polytraumas, but their care may actually go back to a 
military treatment facility before they are released from 
service. Then when they get home, the VISN is not even aware of 
them.
    Mr. Walz. Anyone else?
    Ms. Wade. I would probably echo Cheryl. The importance of 
someone getting involved at the very beginning and actually 
kind of paving the path, letting people know when that next 
transition is coming would be very useful.
    But I think in our particular situation, it would have been 
nice to have a Federal recovery coordinator or someone like 
that at the very start mapping out what all my husband's needs 
were because when--because Ted needed very specialized care for 
his brain injury but also very specialized care for his amputee 
and orthopedic injuries as well, it was hard to get all the 
expertise in one location.
    And it would have been nice had somebody mapped out all of 
his needs, decided where the best place was to go for that, and 
explained to me a long time ago that to get the best care, we 
may have to move. It would have been nice to have not figured 
that out over time by accident. It would have been nice to have 
known before we burned the road up between Washington, DC, and 
North Carolina coming back and forth to Walter Reed.
    But, yeah, having that life plan early on would have been 
nice, but also one of the things that has already come up is 
what TRICARE can cover in terms of cognitive therapy and those 
sorts of things.
    My husband would have been best served by staying near 
Walter Reed Army Medical Center where he could do amputee 
rehabilitation because upper extremity amputee rehabilitation 
is something uncommon even in the private sector. And it would 
have been nice for him to have been able to get services 
somewhere in the Washington, D.C. area like the National 
Rehabilitation Hospital or somewhere like that.
    But because he was retired, TRICARE could not cover that 
type of rehabilitation for him. And, again, we are talking 
about a very small number of individuals and it would be nice 
if in their cases, they could make exceptions and get the best 
care in the best location.
    Can I jump in real quick since you are going to talk to the 
Admiral? One of the things is also the Federal recovery 
coordinators and the VA case managers that are inside the 
military hospitals that are seeing these individuals, they need 
to be credentialed and allowed to write consults or, you know, 
case management notes in the records.
    You will not believe this, but, you know, maybe you will, I 
have stumbled into the fact that individuals out at Walter 
Reed, the National Naval Medical Center especially, they resist 
allowing VA case managers and stuff writing actual notes in the 
charts.
    So Congressman Roe and I were talking before the hearing 
and in our previous lives as health care providers, you know, 
it is important to be able to look in the chart and know 
exactly who has recommended what, you know, for the physician 
who is the supervisor or when I was the physician assistant. 
And that is not being done.
    And, boy, that is an easy fix. You just say, okay, you 
know, chain of command, if there are ten VA case managers, I do 
not know what the number is, at Walter Reed and two Federal 
recovery coordinators, they can write their own consults so 
there is that record.
    Thank you.
    Lieutenant Kinard. Sir, if I might jump in. You know, I do 
not think there is any silver bullet solution to this issue, 
but one suggestion that I might offer is approaching this 
through the mindset of the average patient population, you 
know, the 18- to 24-year-old, you know, grunt who is out there, 
you know, on the battlefield and ends up in the hospital, much 
like myself.
    The way we learn in our infantry training, you know, big 
cards with pictures that you can point to and keeping it simple 
but effective to provide information to the recovering 
servicemember and their family, something even as simple as a 
card that has a wire diagram that shows, you know, hey, this is 
how you get an appointment or this is a list of any potential 
case manager and a description of what they do because a lot of 
times when we are at Walter Reed or Bethesda, we see the faces 
and then they come by and say, hey, how you doing, and I am 
thinking, okay, well, I do not really know what you do, so I am 
not going to bring up my stuff to you, you know, I do not know 
what it is you do, something as simple as that.
    Mr. Walz. That is a great suggestion. Are you saying, 
Lieutenant, that the VA Web site is not user friendly? They are 
the target of my scorn quite often. I cannot read the dang 
thing.
    Lieutenant Kinard. The National Resource Directory?
    Mr. Walz. Yes.
    Lieutenant Kinard. It is overwhelming because there is just 
so much there. I mean----
    Mr. Walz. I think that is a great suggestion. Thank you.
    And, Captain Brogan, I know I have used up more than my 
time. I will not come back around. But I do think it is 
important, each of these questions, again, I will put right to 
him and make sure that they are listening. So, please, sir.
    Captain Brogan. I apologize. My brain injury, sometimes it 
takes me a second to get kicked in gear.
    One thing with the VA, if you are enrolled in the 
polytrauma center, it does seem to be a better transition from 
the VA into your hometown since they have all the information. 
It was forwarded to my clinic in Knoxville. However, once they 
received it, and I went in my first appointment and they said, 
we've never had a case like yours, we are learning. Well, isn't 
that great to hear?
    If somebody had been there to explain it to them without me 
having to do it, that would have been nice. Fortunately, I had 
the good fortune of having a wife that from day one was 
collecting medical records and making sure everything was taken 
care of. We wondered, wow, what if there was a soldier out 
there that did not have that good fortune, where would he be? 
You know, he would just be lost walking around Walter Reed and 
would never even make it out of there to the VA.
    So echoing a few of the other suggestions that were made, 
specializing in the actual injury and having, like I said, a 
so-called boot camp and making sure that there is a universal 
knowledge base and having all the social workers connected so 
they have contact with each other. So they can actually forward 
you to somebody they know is going to have the answer. I do not 
know how many times I have been on the phone and heard, well, 
let me forward you to this person. It could take a week to 
figure out, you know, and then you may get an answer and you 
may not. It is just frustrating.
    Mr. Walz. All right. Well, thank you all very much and I do 
appreciate it.
    I yield back, Mr. Chairman, and thank you for the 
additional time.
    Mr. Mitchell. Congressman Hall.
    Mr. Hall. Thank you, Mr. Chairman and Ranking Member Roe.
    And thank you to our panel for your sacrifice for our 
country.
    And as I said before when Dr. Roe was kind enough to yield, 
our information as of today is there are 257 veterans enrolled 
in the FRCP and only 14 coordinators which averages out to 18 
veterans assigned to each coordinator.
    Dr. Zampieri, do you think that is a good number or high or 
low or would you leave it as Ms. Lynch suggested to the 
coordinators to decide?
    Dr. Zampieri. That is tough. And I spent a year on 
neurosurgery and someone who is in an acute phase the first 6 
months when they first come back may require a lot more time. 
And so I hazard that if you get into one per ten, you run into 
problems because as they transition into more of their 
rehabilitative care, they may not need as much intensive 
casework management.
    And so it really is, and no one likes to hear this 
response, but I think it is hard because as even Sarah said, 
you know, it has got to be pretty individualized. I think the 
Federal recovery coordinators need to be able to request help 
if they find that they are trying to manage 20 people and it is 
too much, you know, versus, you know, the idea that, well, you 
are only supposed to have 10.
    Mr. Hall. Well, maybe the next panel can answer that 
question better.
    Dr. Zampieri. Yeah.
    Mr. Hall. But I just returned from Afghanistan and Iraq 
over our so-called break and our servicemen and women are using 
the same creativity and energy and loyalty to our country and 
to each other and enthusiasm and, you know, handling some very 
difficult situations in a very expert fashion. And we are all 
very proud of them as we are of you and of your spouses.
    I did meet with Admiral Mullen yesterday and asked some of 
these same questions to him, especially in terms of the 
electronic handoff of medical records from active duty to 
veteran status. And I am assured as I was a year and a half ago 
when I spoke to the Commander at Landstuhl Medical Center in 
Germany that it is about to happen. So the question is when and 
how.
    I am told that in Balad when a helicopter lands and a 
wounded soldier is brought in through those doors into the 
trauma center that they begin right away entering information 
into Alta Lite Program, Alta Lite which can be then entered 
into the full-fledged Alta Program and that they can share MRI 
results, chest results, CAT scans, what have you at the speed 
of light with any doctor here or over there in theater or in 
Germany using MedWeb.
    These are things that are, you know, I think maybe there 
are some hackers in college that we could get to come work for 
the VA for a couple months and figure how to make it all 
compatible. If you can take a 44.1 thousand samples per second 
CD and have a little box that somebody made that converts it 
into an MP3 in a matter of seconds, then surely we can figure 
out a way to make DoD's information compatible with VA's 
system.
    But good luck, Congressman Walz. If enough of us ask for 
this, it will happen.
    I also just wanted to comment and then my time will be up 
that I am glad that our President is including the cost of the 
conflicts in Iraq and Afghanistan in the budget. It is one of 
the things that has caused the budget to swell and a lot of 
people are looking at the total number going, oh, my gosh, that 
is a huge number, but it is the first time in the 7 years that 
we have been at war that we have had this is not a surprise 
anymore, it is in the budget, not in a supplemental, and that 
is part of the reason.
    We also need to realize that taking care of the wounded, 
those who have served us in those conflicts is part of the cost 
of war and the country needs to be prepared for that and needs 
to know that that is coming and be prepared to fulfill our part 
of the deal with those who have laid their lives on the line 
and in some cases given their lives.
    So thank you, Mr. Chairman. I yield back.
    Mr. Mitchell. Thank you.
    I just have one question I would like to add to Cheryl. You 
know, the organization that you founded, the American Veterans 
with Brain Injuries, do you have a Web site?
    Ms. Lynch. Yes, sir.
    Mr. Mitchell. And could you tell us some of the common 
questions that are being asked and do you believe that there is 
enough outreach to the VA to accommodate and educate all the 
families about severe brain injuries?
    Ms. Lynch. Initially I started the Web site as a peer 
support, some place for families to just reach out to other 
families because we are spread all over the country.
    I think the outreach from the VA is very lacking. Family 
members go home and we just do not know where to start. And 
that is most of the questions that I get from other family 
members, where do I get cognitive therapy, how do I get 
cognitive therapy, there are other things that I am reading 
about on the Web.
    You know, they are getting pieces of information, but it is 
not necessarily valid information. Family members that are 
dealing with somebody who has a brain injury are desperate. We 
want answers. We want opportunities. We want to provide any 
therapy that may help our loved ones recover.
    Well, when there is nobody giving you any clear direction, 
then you have a tendency to go off in any direction.
    An experience that happened for me most recently was my 
son, we have a new TBI clinic and I thought that was going to 
be a great opportunity at our VA. My son is nearly 9 years post 
injury and the first thing they did was screen him for brain 
injury. And I am thinking if other family members are going 
into their VA and having those same things happen, you want to 
knock someone's head and say this is a brain injury, I would 
like you to understand it.
    So I think families are desperate. I think they are looking 
and the resources are not being handed to them.
    Mr. Mitchell. Just one comment. It is kind of interesting 
that here is a Web site, which is all done by word of mouth.
    Ms. Lynch. Yes.
    Mr. Mitchell. You are getting inquiries about what to do, 
where to go.
    Ms. Lynch. Yes, sir.
    Mr. Mitchell. And, yet, the VA has all the resources that 
it has and people are still out there looking for Web sites and 
support groups. It might be good if maybe the VA would look at 
some of these Web sites and get some of the information off of 
that. It might expand their outreach.
    Ms. Lynch. I would like to add something. Family members 
get to a point where we do not trust anything that anybody 
tells us from the DoD and VA. Sometimes we only trust what 
comes from another family member. So, yeah, I think it would be 
a great resource for the VA to actually look at some of the 
family organizations that have been started and some of those 
who truly can offer peer support.
    Mr. Mitchell. Well, it is pretty obvious that these 
organizations like yours that are formed are because there is a 
lack of support some place else. Otherwise, they would not need 
you.
    Ms. Lynch. Yes, sir.
    Mr. Mitchell. I want to thank all of you for coming today. 
And this is very meaningful for all of us. It is very 
appreciative not only for what you are doing now for the future 
needs of veterans but also what you have all done for your 
country. We appreciate that very much. And thank you very much.
    [Applause.]
    Mr. Mitchell. I would like to welcome panel two to the 
witness table. And for our second panel, we will hear from Dr. 
Karen Guice, the Executive Director of the Federal Recovery 
Coordination Program at the Department of Veterans Affairs. 
Also joining us will be Dr. Madhu Agarwal, Chief Officer of 
Patient Care Services for the Veterans Health Administration; 
accompanied by Dr. Lucille Beck, Chief Consultant for 
Rehabilitation Services in the Office of Patient Care Service 
at the Veterans Health Administration and Jennifer Perez, 
Acting Chief Consultant for Care Management and Social Work for 
the Office of Patient Care Services at the Veterans Health 
Administration.
    I would like to remind all of you if you could keep it 
within 5 minutes, we would appreciate that. We do have your 
written testimony.
    And I would like to first of all recognize Dr. Guice for up 
to 5 minutes.

   STATEMENT OF KAREN GUICE, M.D., MPP, EXECUTIVE DIRECTOR, 
   FEDERAL RECOVERY COORDINATION PROGRAM, U.S. DEPARTMENT OF 
VETERANS AFFAIRS; ACCOMPANIED BY MADHULIKA AGARWAL, M.D., MPH, 
CHIEF OFFICER, OFFICE OF PATIENT CARE SERVICES, VETERANS HEALTH 
 ADMINISTRATION, U.S. DEPARTMENT OF VETERANS AFFAIRS; LUCILLE 
BECK, PH.D., CHIEF CONSULTANT, REHABILITATION SERVICES, OFFICE 
OF PATIENT CARE SERVICES, VETERANS HEALTH ADMINISTRATION, U.S. 
  DEPARTMENT OF VETERANS AFFAIRS; AND JENNIFER PEREZ, LICSW, 
   ACTING CHIEF CONSULTANT, CARE MANAGEMENT AND SOCIAL WORK, 
       OFFICE OF PATIENT CARE SERVICES, VETERANS HEALTH 
      ADMINISTRATION, U.S. DEPARTMENT OF VETERANS AFFAIRS

    Dr. Guice. Good morning, Chairman Mitchell, Ranking Member 
Roe, and Members of the Committee.
    I respectfully request that my written statement be 
submitted for the record.
    Joining me today from the Veterans Health Administration 
are Dr. Madhulika Agarwal, Chief Patient Care Services Officer; 
Ms. Jennifer Perez, Acting Chief Consultant for Care Management 
and Social Work; and Dr. Lucille Beck, Chief Consultant for 
Rehabilitative Services.
    Today Captain Brogan, Lieutenant Kinard, Mrs. Wade, Mrs. 
Lynch, and Dr. Zampieri added their concerns to those that you 
have heard over the past several years. We simply must do 
better.
    Sixteen months ago, the Federal Recovery Coordination 
Program was created to address service and benefit coordination 
problems across two large complex systems of care and benefits. 
Specifically the program is designed to provide oversight and 
coordination for very seriously or catastrophically wounded, 
ill, or injured servicemembers, veterans, and their families.
    To do so, the Federal recovery coordinator or FRC develops 
a customized Federal individual recovery plan that is used to 
monitor and track the services, benefits, and resources needed 
to accomplish identified goals.
    The goals are those of the servicemember or veteran with 
input from the family or caregiver and the multidisciplinary 
team. The number and types of goals are related to the medical 
problems, the stage of recovery, and the holistic needs of the 
client and family.
    Developing goals is a methodical process that begins with 
evaluation. FRCs review the relevant records and discuss 
specific problems and challenges with the various health care 
providers and case managers. This preparation allows for a 
structured dialogue with the client in developing the plan.
    The FRC and relevant case managers determine responsibility 
and a timeline for implementing the steps necessary to reach a 
goal. The FRC then monitors progress with the case manager and 
the client, providing support and additional resources to both 
until the goal is reached.
    FRCs frequently organize meetings with providers, case 
managers, and clients to make sure that objectives and 
expectations are clear.
    The plan and goals change as a client progresses through 
the stages of recovery, rehabilitation, and reintegration. The 
FRC provides a single consistent point of coordination through 
this progression. Accountability for the plan rests with the 
FRC.
    Today, 14 FRCs are located at six military treatment 
facilities and two VA medical centers. All have a clinical 
background with most being nurses or social workers. One is a 
vision rehabilitation specialist. All have prior experience in 
either the military health care system or the VA health care 
system.
    Collectively, they have over 200 years of professional 
experience. All are Master's level and many have advanced 
practice degrees. All have specialized knowledge in one or more 
clinical areas. They frequently consult each other bringing 
their collective knowledge and experience to bear for their 
clients.
    Currently 257 clients are enrolled in the program. 
Generally these clients are very seriously or catastrophically 
injured or ill and require complex arrays of specialists, 
multiple inter-facility transfers, and lengthy rehabilitation.
    Individuals are either referred to the program or 
identified by the FRCs from daily census lists and during 
attendance at specialty team care meetings or down range 
videoconferences.
    Over the past 6 months, key constituencies have received 
information about the program. A series of focus groups were 
held with 25 veteran service and nongovernmental organizations. 
Program updates have been provided to both DoD and facility 
leadership during site visits. Additional briefings and 
information sessions have been provided to a variety of other 
groups.
    FRCs also participate in local and National events to 
promote the program. Because of these efforts, referrals to the 
program increased twofold. Forty percent of all clients were 
injured prior to 2008.
    On the back of the newly designed brochures, which are on 
the table outside, is a new toll-free number to make sure that 
it is easy to refer potential clients or get information about 
the program. A description of the program is on the National 
Resource Directory's Web site and the OEF/OIF VA Web site.
    The program has a strategy to reach out to those who went 
through the system before the inception of the program and who 
might still benefit from a recovery plan and care coordination.
    Care coordination is a relatively new concept and what it 
does is it improves service integration along different 
delivery systems and eases transition from one system of care 
to another. It is not a band-aid or an indication of failing 
systems. Instead it is another step in the evolution toward a 
fully integrated system where care and benefits are organized 
around the multiple needs of individuals across the care 
continuum.
    FRCs in keeping with this concept coordinate the delivery 
of services and resources for servicemembers, veterans, and 
their families in accordance with the goals identified in the 
plan. They work with the military services, TRICARE, VHA, VBA, 
other governmental resources including State and local 
agencies, as well as the private sector.
    For those servicemembers and veterans not enrolled in the 
program, there are a variety of programs, services, and 
resources designed to meet their needs through the Departments 
of Defense and VA.
    The Federal Recovery Coordination Program is accountable to 
the Office of the Secretary in acknowledgment of its corporate 
responsibility to coordinate benefits among all Federal 
agencies that provide services to this population of wounded, 
ill, and injured servicemembers and veterans.
    I assure you that I am accountable for the performance of 
this program. I depend on your input and collaboration as the 
program continues to mature. It is my obligation and my promise 
to ensure that this program as part of a client-centered 21st 
century organization is efficient and effective.
    Your support is greatly appreciated and I look forward to 
your questions.
    [The prepared statement of Dr. Guice appears on pg. 44.]
    Mr. Mitchell. Thank you.
    You know, I have a couple of questions. First, I think you 
know that everybody up here wants this program to work and we 
saw the need for it from the panel before us. And it seemed to 
me that after all the different programs that Dr. Roe read off 
and in listening to all the people that these veterans are 
getting a handful of cards, business cards and so on, at first, 
I was thinking, well, maybe there are not enough resources, but 
it seems like there are a lot of resources.
    More than anything else, it seems like there is an 
organizational issue, that maybe it needs to be reorganized 
because this is a new office, this is a new program. But in 
order to meet the needs of these veterans coming back, it seems 
to me like we have got resources that just need to be 
reorganized.
    And I hope you have the authority and obviously you have 
the ear of the Secretary to get what you need.
    One of the other things that was brought up in the last 
panel was the fact that there seems to be some turnover in the 
FRCs. And I was wondering if that is caused by lack of 
resources. Are they overwhelmed with the number of caseworkers? 
Are they underpaid, they do not have enough support?
    It is important as we heard that once a person has some 
faith in an FRC that they continue on with this person and not 
all of a sudden start over. They have already started over 
many, many times in their career.
    I had another question, I should have written it down, that 
I wanted to ask you about that. But in any case, I will let it 
go at that and maybe I will come back.
    If you have any answers to any of that in terms of 
resources or the change of--oh, I know what it was. It was 
about the Web site that was talked about earlier and that maybe 
some people are afraid or do not trust the VA because they have 
had so many handoffs and so many cards and they do not know who 
to go to.
    Is there any effort at all maybe to try a new approach and 
look at some of these Web sites that people do trust and do go 
to and find out, wow, here are some concerns? We do not need a 
hearing. We can just go to these Web sites and find out what 
people are asking and we could answer those if they would come 
to us. But maybe they do not come to us because they have been 
handed off so many times and had new caseworkers and so on.
    Dr. Guice. I will answer your last question first which 
addresses taking advantage of modern technology and 
understanding that there are a lot of different ways for 
information to be exchanged among families and among 
individuals throughout the country.
    Certainly I can speak for my FRCs. They actually watch many 
of these Web sites and learn a lot about their clients through 
the information that the clients or the family members share. 
That is another way for them to get information about what is 
actually happening and how it is being perceived by the family 
or the servicemember or veteran with regards to their care, as 
well as what is happening in their immediate life.
    The information through the VA's Web site, for OEF/OIF, has 
been redesigned. If you have not had an opportunity to look at 
it, I would encourage you and your staff to do so, give us some 
feedback on it, make sure that it is working, gives the right 
information, and is useable and friendly to the viewer.
    The other web portal that the FRC Program uses a lot is the 
National Resource Directory. It is a Web site of about 11,000 
resources and helps the FRCs as well as any individual who goes 
to the Web site identify resources.
    I think that the concept of capturing these new innovative 
ways of exchanging information is very important and we need to 
continue to work toward making sure that we are adaptable and 
flexible.
    Mr. Mitchell. One last thing. With all of these, and, 
again, it sounds like there are a lot of people working, the 
resources are within the VA, particularly the health services, 
hopefully there is a way that these people just do not say, 
well, this is my job and, you know, I understand the 
frustration they have working with any bureaucracy, saying, 
well, what you need to do is phone this 800 number, what you 
need to do is talk to someone else.
    And that is why I think you were created, this agency, and 
I think you have probably got a good sense from the first panel 
of what needs to be done.
    Dr. Guice. The concept of the Federal Recovery Coordination 
Program is really one of care coordination. The FRCs are not 
case managers. Case managers are really facility-based 
individuals who serve in a capacity at each one of those 
facilities to manage certain aspects of an individual's care.
    Mind you that these individuals that you heard from the 
first panel are often transitioning between a DoD facility, a 
VA facility back to maybe a different DoD facility, maybe to 
another VA facility. They really make a lot of transfers and 
transitions; and just managing the complexity of their injuries 
and their rehabilitative needs is difficult.
    The concept of the FRC is to coordinate care to make sure 
that the transitions are as smooth as they can be for these 
individuals, that there are plans in place, that the case 
managers who are sending the individual and involved in those 
transitions discuss the case with the receiving case managers 
and that there are plans in place for not only sending the 
individual but receiving the individual.
    FRCs because of where they sit both within the organization 
and between the DoD and VA are very instrumental to actually 
improve those transitions.
    The FRCs also assist with transitions in and out of the 
private sector. As you know, many of these individuals get 
rehabilitative services in the private sector. The FRC is the 
person who continues to have visibility of the individual and 
their family as they make those transitions in and out of the 
private system as well.
    Mr. Mitchell. One last question before I turn it over to 
Dr. Roe. You know, Cheryl Lynch pointed out, and I think this 
is where probably distrust comes and not believing what they 
hear, is that her son after 9 years, they are coming in and 
starting all over and saying they want to reevaluate. If the 
system does not already know, how could they be treating him 
for 9 years?
    So I just think that there is an awful lot that needs to be 
done in terms of just plain communicating with people. And, you 
know, it is easy for a new person to come in and say, okay, we 
need to run some tests for something. That ought to be 
available to them.
    And that is really the expertise of Dr. Roe, and I will 
turn it over to him.
    Mr. Roe. Thanks. Thanks very much, Mr. Chairman.
    And I think it is not that people are not trying when you 
read all these. I mean, obviously people are trying. And it 
seems to be coordination of assets.
    And back to what Captain Brogan said was that what he would 
like to do is just talk to somebody who knows what they are 
talking about. And that is a fairly reasonable thing, I think.
    And it has gotten incredibly complicated, it sounds to me 
like, and we need to back up and uncomplicate it a little bit. 
And I think basically what these wounded warriors are looking 
for is someone to say you need to go this direction and this 
person they are going to address a very specific type of care.
    And I know as a surgeon as you are, you knew who was 
responsible when you went to the operating room. There was not 
any question about it, was there? When I went to the operating 
room, no doubt about who was going to be responsible for the 
care. That is what we need here, someone who is accountable.
    And the Lieutenant said that very, very clearly and he is 
absolutely dead on right about it is that we need to know that 
the buck stops on your desk if this wounded warrior is not 
getting what they need.
    And I think it is now 2 weeks ago, I was fortunate enough 
to go to Afghanistan and it reminded me very much of my service 
at the DMZ in Korea years ago. And I can tell you I could not 
have been prouder of the soldiers, of the care they got there 
in the battlefield. And an extraordinary number of them live 
now and much better than in Vietnam at that time.
    So what we have got to do is we have got to make, and it 
was also said, a lifetime commitment to these soldiers because 
their needs are going to, the Lieutenant said this very 
clearly, their needs are going to change and they are going to 
change when you are 40 and when you are 50 and when you are 70.
    And for me, I am committed for a lifetime for these 
warriors. And we have a system in place. I think we have over-
complicated the issue. And I think very simply the coordinator 
is absolutely the way to go, is to say this is the person that 
is responsible. And you have got to find somebody basically who 
cares. Books do not care and pamphlets do not care. People do.
    Dr. Guice. Sir, I think you have made a very important 
observation and I think that it is actually time now. We have a 
lot of resources. I think, Mr. Chairman, you said that in your 
comments as well. We have put a tremendous number of resources 
toward the problem.
    And I think it is time for us to step back, examine what we 
have learned, figure out what is working, figure out what is 
not working, and try to reorient things so that we have a 
cohesive, integrated care delivery system between the DoD and 
the VA and some of the private sector.
    Mr. Roe. I think the experts are sitting right there behind 
you.
    Dr. Guice. Yes, sir.
    Mr. Roe. They have been through it and I have never heard 
anybody that knows more about it than they do. And I was amazed 
at what they have done for their families.
    And I agree with all of them that if they had not had that 
family commitment, I do not know what would have happened to 
many of these wounded warriors. And we should not do that. I 
mean, we can do better. We are better than that. And I think we 
are going to do better.
    And in 6 months, I want to hear how many wounded warriors 
we have in this program, if there are not enough coordinators. 
I think the Chairman and I and all the Members of the Veterans' 
Affairs Committee are willing to go to the mat to make sure 
that the resources are there to take care of these folks.
    Dr. Guice. Thank you, sir.
    Mr. Roe. I yield back.
    Mr. Mitchell. Thank you.
    One last comment. And really it kind of hit me with what 
Dr. Zampieri said about how policy is made in one of the 
classes he took. And I think this is what has happened with 
this is that we have just layered it little by little. When a 
need comes up, we add a policy.
    And maybe to have good policy, we need to just restructure 
the whole thing and start over because I think what we have 
done is we have created a program or a policy with each 
different issue that comes up and not really looking at the 
total. And I think that to me is what the FRCP is all about and 
what you are about.
    So maybe you will have the authority. I know you have the 
ear now of the Secretary, that you can go in and say, you know, 
we need to look at this holistically and things are different 
than when we first had this program, this program, and this 
program. It is time to reevaluate it all. And I think now is a 
great time to do that.
    Dr. Guice. I agree, sir.
    Mr. Mitchell. Well, thank you all very much. And I 
appreciate what you are trying to do and I appreciate all the 
services given to our veterans. They deserve nothing less.
    One thing, you know, Dr. Roe mentioned a lifetime of 
service. There was a veteran, I just want to share this with 
you and you all know this, there was a veteran in my district 
and he lost both of his legs, a little bit different than the 
Lieutenant. And I asked him at a program one time, I said, 
well, Garrett, how much did this leg cost. And he said, well, 
this leg cost $100,000 because it has a computer chip and you 
plug it in every night. The other one was only 3,500 because it 
was below the knee.
    And this young man was less than 25 years old. And we know 
there are going to be some technological advances that are 
going to make improvements on these. He is going to need more 
care and this is the rest of his life. And this is a cost and 
we should not even worry about the cost. We should make sure 
that they get the very latest and the best care forever. They 
paid the ultimate price. We have got to continue that.
    And I appreciate all of you and the work that you are doing 
for veterans.
    Dr. Roe, did you have another question?
    Mr. Roe. No.
    Mr. Mitchell. Okay. Well, thank you very much. And this 
concludes the hearing.
    [Whereupon, at 11:43 a.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


        Prepared Statement of Hon. Harry E. Mitchell, Chairman,
              Subcommittee on Oversight and Investigations
    Thank you to everyone for coming today to this hearing entitled, 
Leaving No One Behind: Is the Federal Recovery Coordination Program 
Working?
    Before we begin, I would like to introduce everyone to the 
Subcommittee's new Staff Director, Marty Herbert. Marty is a retired 
Army Lieutenant Colonel and a veteran of the Gulf War, OEF, and OIF. He 
brings a dynamic and experienced perspective to the challenges facing 
our Nation's veterans. With his addition to this Subcommittee, and his 
leadership, we are going to continue providing the much needed 
oversight our veterans deserve and have come to expect from this 
Subcommittee. So, on behalf of the entire Oversight and Investigations 
Subcommittee--welcome onboard Marty!
    Time and again we have heard stories of troops returning home from 
serving their country, with no guidance and no support. Too often we 
hear of families carrying the burden of a servicemember's recovery and 
reintegration back into civilian life.
    On March 17th, this Subcommittee held a hearing on the Vision 
Center of Excellence. In that hearing, we heard testimony from three 
veterans, Travis Fugate, Gil Magallanes and David Kinney--all three 
seriously injured--all three seemingly lost in the bureaucratic maze 
without coordinated care. The stories of these heroes are part of a 
systemic problem affecting servicemembers and veterans across the 
country. Fortunately, a memorandum of understanding between the DoD and 
VA was signed on October 30, 2007, establishing a Federal Recovery 
Coordination Program--FRCP. Federal recovery coordinators began working 
with patients in January of 2008.
    We are here today to examine the effectiveness of the FRCP and to 
assess if outreach has succeeded in bringing coordinated care to 
veterans who were injured prior to the FRCP. When a servicemember 
returns from combat with multiple injuries, we must ensure he or she 
has a single point of contact to help navigate the bureaucracy of DoD 
and VA. This is the reason the Federal Recovery Coordinators must have 
considerable authority as they navigate the system ensuring the veteran 
and family receives each component of care in their overall plan and 
all the benefits due to them. Oversight of this program is critical to 
ensure it is fully staffed and fully functioning, and I look forward to 
hearing about what needs the VA has identified within the FRCP.
    To put these issues into perspective we will hear from two 
veterans: Captain Mark Brogan, an Army veteran who suffered a severe 
penetrating traumatic brain injury, hearing loss, shrapnel wounds, and 
a spinal cord injury while serving in Iraq in 2006. Captain Brogan 
receives care through the VA clinic back home in Tennessee, but he was 
never made aware of the FRCP when it came online in 2008.
    We will also hear from First Lieutenant Andrew Kinard a retired 
Marine Corps veteran who was injured in Iraq two and half years ago. 
First Lieutenant Kinard was referred to the FRCP in January of this 
year.
    Additionally, we will hear testimony from Sarah Wade and Cheryl 
Lynch--family members of injured veterans who will give us an 
additional perspective on the FRCP--as well as the Blinded Veterans 
Association, who will discuss the impact the FRCP has on those veterans 
with eye injuries.
    Although there is a solid foundation for the FRCP, there is still 
work to be done. I am anxious to hear from the Department of Veterans 
Affairs on how they plan to make the FRCP a program that veterans and 
their families can look to for the care they need and how they plan to 
conduct the appropriate outreach to ensure all wounded veterans and 
their families receive the best care, and no veteran with multiple 
traumatic injuries is left behind to navigate the huge health and 
benefits system alone.
    The Dole-Shalala Commission, which set out recommendations for the 
care of wounded warriors, said it is not enough ``merely patching the 
system, as has been done in the past. Instead, the experiences of these 
young men and women have highlighted the need for fundamental changes 
in care management and the disability system.'' The Commission 
emphasized that significant improvements require a ``sense of urgency 
and strong leadership.'' Now with Secretary Shinseki leading the VA, 
both the sense of urgency and strong leadership is present, and I am 
confident we can work together to provide our wounded warriors with the 
coordinated care they deserve.
    I would like to thank all of our witnesses for appearing here today 
and thank you to both panels for what you do for our Nation and for our 
veterans.

                                 <F-dash>
  Prepared Statement of Hon. David P. Roe, Ranking Republican Member,
              Subcommittee on Oversight and Investigations
    Thank you for yielding, Mr. Chairman.
    Last month, this Subcommittee held a hearing on the Vision Centers 
of Excellence during which three veterans related their experiences at 
the VA and DoD in the care they received. However, upon hearing the 
witness testimony, one of the things that concerned several of us, was 
the apparent lack of any contact with the veterans from the Federal 
Recovery Coordinator team. I went down the line of the first panel and 
specifically asked that question, and not one of the three severely 
injured veterans present had been in contact with or even knew if they 
had a Care Coordinator assigned to assist them.
    This is particularly troubling since last Congress this 
Subcommittee held a hearing on this very issue, and Members were 
assured that the Federal Recovery Coordination team was being staffed 
and that newly injured servicemembers were being contacted and the team 
would be going back and contacting previously discharged severely 
injured servicemembers to assist them with their needs and concerns as 
well. From the testimony we heard last month, this is apparently not 
happening.
    Mr. Chairman, I am grateful that you also felt this was an issue 
that needed immediate attention, and that we are now holding this 
hearing today. I hope to hear better news about the program than what I 
heard last month, and want assurances that the witnesses who testified 
last month have now all been contacted by the FRCP team, and are now 
receiving the assistance that they deserve. I also want assurances from 
the witnesses here today that incidents like we heard last month are 
not going to occur again, and no other veterans will ``slip through the 
cracks'' of bureaucracy.
    It is bad enough that these veterans who have fought so bravely for 
our freedom lost their eyesight due to injuries they received in 
battle. But to ignore their needs when they return home and most sorely 
need our help is inexcusable.
    Again, thank you Mr. Chairman, and I yield back.

                                 <F-dash>
       Prepared Statement of Captain Mark A. Brogan, USA (Ret.),
                      Knoxville, TN (OIF Veteran)
    Mr. Chairman and Members of the Subcommittee:
    I am honored to appear before you today to share my experiences for 
the benefit of other wounded veterans. My name is Captain Mark Brogan, 
and, like many of my brothers-in-arms, I was grievously wounded in 
Iraq.
    Since my injury in 2006, my wife and I have been through quite a 
lot. Despite the efforts of well-intentioned people--and some 
disgruntled disenfranchised people along the way--this has mostly been 
a journey of blind exploration for us. My wife said from the very 
beginning of this journey: ``They will not tell you everything they can 
do to help. You just have to stumble on it, and then demand it.''
    This has proven true time and again. For us, recovery has been an 
unending chorus of ``I don't knows,'' a cycle we must endure until we 
find the answers ourselves.
    I was proud to serve as a U.S. Army Captain assigned to the 172d 
Stryker Brigade deployed to the Iraq Theater in 2005 and 2006. On April 
11, 2006, while leading a patrol in a marketplace, a suicide bomber 
walked around a corner, directly behind me and two of my soldiers, and 
blew himself up. One of my soldiers, SGT Kenneth Hess, was killed 
instantly. I received severe injures, including a penetrating traumatic 
brain injury from shrapnel entering the brain, a nearly severed right 
arm, severe hearing loss, and an incomplete spinal cord injury.
    I was evacuated through Germany and on to Bethesda national Naval 
Center, where I lay in a coma for approximately 17 days. During that 
time, I was transferred to Walter Reed Army Medical Center. My wife 
flew in from Alaska, where we were stationed, and immediately took 
charge of the administrative process. I continued my recovery at Walter 
Reed as an inpatient until July 2006, at which point I was transferred 
to the Tampa, Florida, Polytrauma Rehabilitation Center.
    Upon my discharge from Tampa, I returned to my home in Tennessee 
and received follow-up care through TRICARE Standard. I returned to 
Walter Reed in October of 2006 to have my skull rebuilt. In February 
2007, I returned to Walter Reed yet again to out process the Army for 
my retirement. Upon completion, I went back home to Tennessee to set up 
my medical care through the local VA and TRICARE.
    I have suffered a significant traumatic brain injury, so my wife 
has carried the bulk load of my administrative needs. She has been my 
personal recovery coordinator with no experience navigating the massive 
recovery bureaucracy. My separation from service at Walter Reed was no 
different from many of the stories other soldiers have reported: lost 
paperwork, confusing processes, lack of information, and more.
    My wife and I couldn't affix blame on one person--there was no 
``one person.'' And it was on her to make sense of the mess.
    My transfer from Walter Reed to VA care and my October 2006 return 
back to Walter Reed was a great example of the gaps in the system 
between DoD and VA. I returned to Walter Reed to receive my 
cranioplastic surgery, a procedure to replace a missing half of my 
skull. When I arrived, I was shocked to find my name had fallen off of 
the list to have the procedure. I should have anticipated no less, but 
I was amazed to find no one in the Neurosurgery, Neurology, or any 
other department could give me any solid answers as to why this had 
happened. We had no single contact person with whom to inquire. It took 
us a full month to finally have the surgery scheduled and all the 
necessary preparations made.
    This astounded me. How could something as important as replacing 
part of my skull be lost in the system?
    I have had a total of 13 social work representatives within the VA 
and DoD systems working my case, none of whom communicated regularly to 
make sure all the bases were covered. Once I completed my retirement 
paperwork, I returned to my hometown of Knoxville to start a new 
chapter in bureaucratic dealings. My VA case was transferred from Tampa 
to the VA hospital responsible for the Knoxville area. At first it was 
Nashville, and later in Mountain Home.
    My wife and I would go to the VA clinic in Knoxville for my primary 
care appointments, as the clinic in the area did not provide the 
extensive continued therapy I required for my TBI, Spinal Cord injury, 
and PTSD. There is a local civilian rehab center in Knoxville--Patricia 
Neal Rehab Center--that specializes in all of these types of injuries. 
The obvious answer is to be allowed to attend this facility, but we 
found out it is just not that simple.
    My wife contacted several people at the VA and was again passed 
around the ``I don't know'' loop we've become accustomed to since my 
injury. In the end we were successful and, through the VA Fee Basing 
Program, I was able to attend an extra year of therapy. I received 
physical, occupational, speech, and cognitive therapies. I attended a 
specialized TBI day treatment program and I also received care from 
their neuropsychologist who is specialized in traumatic brain injury 
and has experience with PTSD as well. The Neal Center program is 
nationally recognized and I had the good fortune to be able to utilize 
this resource as the first and only OIF/OEF veteran to date.
    Coordination for my care has been a heavy burden of my wife from 
day one. Only recently has the VA created a polytrauma clinic at my 
closest VA hospital which checks on me regularly. The only problem is 
that their only expertise is medical information. When it comes to 
benefits, we enter the ``I don't know'' loop yet again, and the vicious 
cycle repeats itself.
    As you can see through our exhausting journey, the Federal Recovery 
Coordinator program could have been great for us. It is a brilliant 
idea. I have yet to have the privilege of their services, but had there 
been such a program in 2006, our experience may have been averted.
    Instead, I come before you today with no experience with the 
Federal Recovery Coordinator program. I only heard of the program in 
the last 2 weeks, and not from the DoD or VA. From my subsequent 
research of the program's intentions, I believe it is an excellent 
idea--maybe even an answer to the disconnects and the unending circle 
of ``I don't know'' we experienced.
    In summary, my personal answer to ``Is the Recovery Coordinator 
Program Working?'' is yet another ``I don't know'' in the chorus. I was 
simply never advised of the program. However, I believe had I been 
aware of and able to receive the program's benefits, it certainly would 
have been a huge stress relief for me and my family.
    I hope the experiences I have shared will shed some light on how 
much the Federal Recovery Coordinator program will really impact 
injured veterans.
    I appreciate this opportunity to submit testimony to the Committee 
on Veterans Affairs Subcommittee on ``Is the Federal Recovery 
Coordinator Program Working?'' On behalf of my fellow wounded warriors, 
I would like to thank you for all the hard work and service you 
provide. I look forward to answering any questions that you may have on 
April 28th, 2009.

            Very Respectfully.

                                 <F-dash>
         Prepared Statement of First Lieutenant Andrew Kinard,
                USMC (Ret.) Washington, DC (OIF Veteran)
    Good morning, Chairman Mitchell, Congressman Roe, and Members of 
the Subcommittee. I am pleased to appear this morning to present my 
views of the efficacy of the Federal Recovery Coordination Program.
    I was referred to a Federal Recovery Coordinator (FRC) on January 
28th of this year in order to be assisted with specific issues that I 
had encountered while transitioning from active to retired status. Had 
I known earlier about the benefits of having a FRC, I would have 
requested one much sooner.
    In order to best explain how my FRC has been a benefit, I must 
share with you a brief summary of my recovery. I was injured in Iraq 
two and a half years ago and retired from active service just last 
month. While I was recovering in the hospital, I had the advantage of 
constant attention from doctors, nurses, and other medical staff. When 
I was discharged from the hospital to continue physical therapy and 
eventually transition out of the Marine Corps, I was responsible for 
keeping up with all of the different medical staff and their individual 
responsibilities on my own. I had a medical case manager, a non-medical 
case manager, a social worker, a medical board case manager, a Physical 
Evaluation Board Liaison Officer, a Navy-Marine Corps Liaison Officer, 
a Wounded Warrior Regiment case manager, and a Marine Corps patient 
administration team. The number of support staff is roughly the same 
for most wounded servicemembers; catastrophically wounded 
servicemembers will often have even more.
    With so many resources available to assist in the recovery, one 
might ask the question, ``Why do we need yet another program?''
    Seriously injured servicemembers need the Federal Recovery 
Coordination Program for two reasons: accountability and continuity of 
care.
                             ACCOUNTABILITY
    The net result of the number of support staff is that there is a 
broad diffusion of responsibility among caseworkers, and the recovering 
servicemember loses confidence in the Government's ability to maintain 
accountability of his care. Each caseworker has a specific role in that 
servicemember's recovery, and the burden of responsibility falls on the 
servicemember to keep track of which case manager provides each 
service. The assignment of a FRC provides the recovering servicemember 
with a single point of contact for decisions regarding his care.
                           CONTINUITY OF CARE
    The long list of case managers and other support staff that I 
previously mentioned all fall within the Department of Defense health 
care system. As servicemembers transition from active to veteran 
status, most, if not all, of those case managers will be exchanged for 
new ones in the VA system. New doctors will be assigned. Rather than 
veterans navigate a new health system with no institutional memory of 
their medical history, a FRC can ensure a continuity of medical care.
    In summary, I believe that the Federal Recovery Coordination 
Program, under the leadership of Dr. Guice--from whom you will receive 
testimony in the next panel of witnesses--should continue its mission 
of providing comprehensive coordination of case management to those 
servicemembers who have been most severely injured. Particular effort 
should be made to reach back to those who were injured early in the 
conflict. Recovering from any traumatic injury is difficult at best, 
but the greatest casualty of all is being forgotten.
    Chairman Mitchell and Members of the Subcommittee, thank you for 
the opportunity to testify before you today. I look forward to 
answering your questions.

                                 <F-dash>
                   Prepared Statement of Sarah Wade,
              Chapel Hill, NC (Spouse of OEF/OIF Veteran)
    Chairman Mitchell, Ranking Member Roe, Members of the Subcommittee, 
thank you for the opportunity to speak to you today regarding my 
experiences with the DoD/VA Federal Recovery Coordinator Program. My 
name is Sarah Wade, wife of Army Sergeant (Retired) Ted Wade.
    My husband joined the Army during the summer of 2000, and following 
the attacks of September 11, he was called on to serve first in 
Afghanistan and later Iraq. On Valentine's Day 2004, his Humvee was hit 
by an Improvised Explosive Device (IED) on a mission in Mahmudiyah. He 
sustained a severe traumatic brain injury (TBI), his arm was completely 
severed above the elbow, suffered a fractured leg, broken foot, 
shrapnel injuries, visual impairment, as well as other complications, 
and months later would be diagnosed with Post-Traumatic Stress Disorder 
(PTSD). He remained in a coma for over 2 months, and withdrawal of life 
support was considered, but thankfully he pulled through.
    After the battle for his life was won, the war for benefits and 
care began, and continues today. Due to the severity of his brain 
injury, Ted is sometimes unable to fight for himself, so his struggle 
has become my own. I was neither prepared for this mission, nor trained 
to serve in the many roles I have been expected to. I am often consumed 
24 hours a day by these responsibilities, which have left no time for 
me to return to school, full-time employment, or have a life of my own. 
More than 5 years later, my schedule continues to be hectic and we 
still struggle to maintain a reasonable standard of living. Though the 
journey has been a nightmare at times, people have also listened and 
been responsive.
    After the situation at Walter Reed Army Medical Center imploded in 
February 2007, I was fortunate to have the opportunity to be a part of 
creating solutions. I was invited to give testimony to the Dole-Shalala 
Commission and make a presentation to the DoD-VA Senior Oversight 
Committee (SOC). Among other things, I explained that Ted needed a case 
manager for his case managers, someone to coordinate his amputee nurse 
case manager, the Military Severely Injured Center, OEF/OIF 
Coordinator, Polytrauma Coordinator, psychiatric social worker, Soldier 
Family Management Specialist, and TBI case manager. I wanted someone to 
take care of the administrative items on my daunting ``to do list,'' 
not just point me in the right direction or give me an 800 number. Ted 
needed a case manager with a smaller patient load, someone that 
understood his DoD, MEDICARE, VA benefits, and could coordinate them 
with the fee-basis care he received at a private practice in the 
community, but more importantly, he needed continuity and lifelong 
assistance. Nine months later, Ted had a Federal Recovery Coordinator 
(FRC).
    Admittedly, I have been the biggest supporter of the FRC Program, 
and at times, the harshest critic. This is because we have experienced 
two distinctly different programs. When the FRCs first came online, I 
could not have been happier. We had finally hit the ground running. The 
woman to which Ted had been assigned was everything we had wished for, 
and more, but, just like a series of other programs that had been 
promising, it was short lived. Four months later she was gone, Ted was 
assigned a new FRC, and we had to start from square one again, as we 
had done twenty times before. My husband was devastated because he had 
truly believed things were going to be different this time.
    In my search for answers, I talked to several other families 
involved with the program, only to discover many were on their second 
FRC too. It was clear the program was starting to falter, because it 
simply could not work with such a high turnover rate. Out of 
desperation, I e-mailed everyone I could think of, to make sure they 
were aware of the issue. I received a call back from the Deputy Under 
Secretary of Defense, Dr. Lynda Davis, who asked to meet with Ted and I 
that night on her way home from work. She asked someone from VA to join 
as well. Ted and I were very candid about our concerns and she was 
receptive to our ideas. The following day, I received another phone 
call from the Deputy Secretary of Veterans Affairs, Mr. Gordon 
Mansfield. He listened to what Ted and I had to say and took action.
    The DoD/VA FRC Program came under new leadership last summer, and 
the Director, Dr. Karen Guice, now reports directly to the Secretary of 
Veterans Affairs. From what we have seen, she has been receptive to 
feedback, committed to problem solving, and has continued to reevaluate 
the program. Because the FRC Program Director currently has high 
visibility and access to leadership, she has the leverage to both 
resolve individual problems as they arise, but also identify systemic 
issues and recommend changes at a level where they may be implemented. 
Though there are still some glitches, I believe it is important for DoD 
and VA leadership to promote what is working, and continue to provide 
the willingness and support needed to guarantee the long-term success 
of this program. We have seen a string of other resources crop up over 
the years, only to wilt, or die off, due to a change of focus or 
sponsorship. For once, we need the DoD and VA leadership to see this 
one through.
    The FRC Program is unlike any other assisting severely injured 
servicemembers and veterans, for multiple reasons. All the other 
support systems are specific to a branch of service, a facility, or a 
type of injury. They can assist with specific needs, but are unable to 
coordinate the big picture, or are only involved for a defined period 
of the veteran's recovery. An FRC is able to connect at bedside after a 
servicemember is injured, has the ability to follow them as they move 
to other facilities or systems for rehabilitation, through their 
transition to civilian life, veteran status, and beyond. This type of 
continuity allows the veteran and their FRC to build a strong alliance, 
but also provides a single point of contact that has a complete 
understanding of all their benefits and a comprehensive life plan.
    My husband will continue to face significant challenges for the 
rest of his life, as a severe TBI is never static, but a progression of 
peaks and valleys. Veterans like Ted need support that will be around 
as long as the injuries they sustained in service to their country. 
Just like he needed a team in the military to accomplish the mission, 
he needs a team at home for the longer war. I hope today we can all 
work together, to identify the needs of the veteran, and discuss what 
support the FRC Program requires of DoD and VA to accomplish this life-
long mission. Mr. Chairman, thank you again for the opportunity to 
share my story with you today. I look forward to answering any 
questions you may have.

                                 <F-dash>
                  Prepared Statement of Cheryl Lynch,
    Pace, FL (Mother of Injured Veteran and TBI Awareness Advocate)
    Chairman Mitchell, Ranking Member Roe and Members of the 
Subcommittee, thank you for the opportunity to speak to you today.
    My name is Cheryl Lynch, I am the mother of PFC Christopher Lynch, 
U.S. Army (Retired), who suffered a severe traumatic brain injury on 
July 13, 2000, while on training exercises in France. I am also the 
founder of a support organization for American Veterans with Brain 
Injuries and their families.
    As a result of my personal experience and daily contact with many 
other families, I have a unique perspective on the needs and obstacles 
family caregivers face as we attempt to help our loved ones 
rehabilitate from these life altering injuries. It is with over 8 
year's experience of working with, and sometimes against the 
bureaucracies of the Departments of Defense and Veterans Affairs as 
well as other Federal, state, and local agencies, that I address the 
Committee today.
    First, I would like to recognize the positive advancements that 
have been made in the years since my son's injury. I am impressed with 
the many new initiatives and progressive programs currently available 
to our wounded. Unfortunately, however, once outside of a polytrauma 
setting where services are under one roof, rehabilitative options and 
benefits are still in a maze, one that is riddled with bureaucratic 
obstacles and dead ends. Family members are still left to piece 
together services in an attempt to continue their loved one's recovery. 
It is my opinion that the Federal Recovery Coordinator Program (FRCP) 
may be the best tool offered for navigating this maze. I am hopeful 
that through the FRC Program, Veterans and their families will not have 
to endure, what we have endured.
    In order to fully appreciate my recommendations, you must hear at 
least some of our story and understand that at any given time we had a 
multitude of case managers and/or social workers who were assigned to 
my son's case. Unfortunately each one had their own area of specialty 
or fell under different geographical regions of the VA. For example; 
the Tampa VA Hospital is in VISN 8 and we live in VISN 16; our local 
clinic falls under the Biloxi VA of the Gulf Coast Health care system, 
CWT was initiated through the Tampa VA and transferred the case to our 
local VR&E office which falls under the direction of Montgomery AL, 
Compensation and Pension claims and physical exams are done locally, 
but the rating determinations are done in Saint Petersburg, Florida.
    On July 13th 2000, my son fell 26 feet, which resulted in a severe 
traumatic brain injury. My son was airlifted within minutes of his 
accident to a French Airborne field hospital in Montauban. He was 
stabilized and transferred to a civilian hospital in Toulouse, France, 
where he remained for 28 days in a coma and on life support. Once Chris 
was removed from the ventilator, yet still comatose, he was transferred 
to Landstuhl Army Hospital in Germany and the next day we were flown to 
Walter Reed Army Hospital. Over the course of the following months my 
son was treated at both Walter Reed and the Tampa VA hospital.
    On April 20th, 2001, Chris was released from the Army, and I 
brought my son to our home in Florida. Since that time, I have been 
Chris' caregiver. I knew my job would be difficult, but I did not know 
I was also going to be giving up my business to have a lifelong career 
of being a co-coordinator and mediator of case managers, medical needs, 
insurance issues and VA benefits.
    Chris' continuum of care was never coordinated with any VA agency 
or civilian TBI clinic; instead, we were left to figure it out 
ourselves. We used our local Military Treatment Facility for general 
health issues, and I researched TBI facilities through out the Country 
that might help him gain use of his body and mind. Any options I found 
were met with constant battles of who was responsible for payment.
    Due to a lack of appropriate continued therapy Chris' physical 
impairments worsened and caused increasing difficulties with his 
ability to feed himself and ambulate. Chris was evaluated at two 
different out-of-state civilian clinics, where physicians who 
specialized in Tone and Spasticity determined that Botox injections 
might relieve some his difficulty. We returned home and appealed to 
both VA and TRICARE to pay for the Botox treatments, but both refused; 
stating Botox was not a proven therapy. This has since changed and is 
commonly used by the VA, yet at that time I appealed to the VA for 2 
years, requesting someone pay for the treatments.
    After finding out that there were no appropriate cognitive 
therapies available locally; I submitted a letter to the VA's 
Vocational Rehabilitation Office. I asked for their assistance to aid 
my son in attending college classes part time to aid in his 
socialization, as I thought it would be therapeutic for him. Chris and 
I were informed that VR&E was not to be used to replace therapy. 
Eventually he was approved to attend college under an extended 
evaluation of an Independent Living Plan.
    Chris was granted permanent retirement from the Army in 2003 and 
the VA initiated another C&P evaluation of Chris' condition. A 50-
minute appointment with a VA neuropsychologist, created a new battle 
with the VA to prove Chris' competency. The next 5 months I felt like a 
lawyer with no assistance or guidance compiling a legal brief. Six 
months after submitting our defense we received a letter stating the VA 
had found Chris competent.
    Chris was assigned a primary care physician at the Pensacola VA 
health Clinic in June 2004. The doctor was thorough and compassionate 
and she referred Chris to a specialist at the Biloxi VA for the 
increased tone and spasticity. That doctor determined Botox treatments 
were absolutely necessary as it was causing knee, hip and back 
problems. He agreed to Fee Base the injections and physical therapy for 
Chris at a Rehab facility close to our home. Four months later and 
after a lot of personal phone calls we finally got the authorization 
and approval. However, 18 months into treatments we got a phone call 
from the treating physician's office the week before an appointment. 
The VA had not paid for the last three treatments. The doctor 
rescheduled the appointment and subsequently canceled it completely, 
because of non-payment. Thirty-seven phone calls and 5 months later, 
the bills were finally paid and treatment resumed.
    In October 2006, during a TBI summit in Washington DC, I had a 
chance meeting with Chris' original doctor from the Tampa VA. This Dr 
was surprised to hear Chris had not been contacted for follow up with 
the TBI program. He offered for Chris to return to the Tampa VA for 
additional therapy and to devise a new treatment plan. I found it a 
wonderful opportunity, but a shame that I had to travel to DC and 
depend on a chance meeting to find out about the possibility.
    Chris was readmitted to the Tampa VA's Brain Injury rehab for 2 
weeks in January 2007. Again the staff was very thorough and before 
Chris' release from the hospital, the TBI team had a phone conference 
with our local VA office. Chris was released from the Tampa VA with 
what seemed to be a new treatment plan in place for both his health 
care and vocation training. Yet when we returned home, we wound up in a 
perpetual downward spiral and the following months were disastrous.
    Just prior to discharge from the Tampa VA, Chris had been 
prescribed a new medication, which he was receiving through the VA's 
automatic refill system, but he was not being monitored for its 
possible side effects, nor was he getting the individual counseling as 
requested in the discharge plan. Within months my son's mental health 
and physical well-being was at stake, and I feared for his life. After 
numerous desperate phone calls we finally got appropriate help from 
civilian mental health professionals.
    More recently we have been confronted with the fact that, although 
many changes have been made, the system of care and benefits within the 
VA still does not work as it is intended and there is still a 
reluctance to send veterans outside of the VA for needed care.
    Late last Summer Chris was referred, by his VA Primary Care 
Physician, to the new TBI Clinic at our local VA. She had hopes that 
they may be able to provide additional services or therapies, and I had 
hopes that they may provide additional oversight of his care. During 
his first appointment with the TBI Clinic last month, it became 
apparent that they were not prepared at all to provide anything for my 
son. Apparently no one had even looked at his records. In the first 15 
minutes of the appointment they ``screened'' Chris for a TBI and then 
asked me if he had ever had cognitive neurological testing. Our saga 
with the VBA has also continued. Just weeks ago we received the rating 
results of my son's most recent C&P evaluations. These were ordered as 
a result of the enactment of the new Schedule of Ratings for the 
Residuals of Brain Injury. While we were very excited about the new 
ratings schedule, we were very quickly disappointed when his rating was 
far below our expectations. Fortunately, I was able to contact the FRC 
program and they intervened to get the rating reviewed and corrected.
    My purpose in being here today is not only to tell you our personal 
story, but also to let you know that we are not alone. Many of the 
Veterans and families I am in contact with need the assistance of 
others not only to help them with daily activities, but also to help 
navigate the maze and remove obstacles that actually impair the 
veteran's progress. Care management of our veterans should not matter 
if the injury was suffered in combat or not. Specifically, the nature 
of a brain injury is multi-faceted and life altering and the 
responsibility of providing that lifelong care falls on the family 
members. The responsibility is daunting, the stress is never ending, 
and we need a lifeline.
    In my opinion, the FRC program is one of the most beneficial 
programs offered in recent years. It has provided me and others I know 
that needed lifeline in times of crisis. However; the program is still 
evolving, and after speaking with families who have been afforded the 
services provided through the Federal Recovery Coordinator Program; it 
seems not all FRC's are created equal and the program itself is still 
not perfected. Some families have expressed that they rarely 
communicate with their coordinator and a few families are not even 
aware that they have an FRC, as it's hard to distinguish care managers 
from the multitude of case managers. Conversely, some families have 
seen the effectiveness of FRC's to serve as a compass for the maze, 
where an FRC has actually been able to provide the necessary oversight 
to develop and implement the Veteran's recovery plan. Others have been 
able to call on their FRC when bureaucracy has gotten in the way of 
progress. Some of these variances are due to the individual needs of 
the families, but it is also due to the nature of a new program 
struggling to hit its stride.
    Although my son is not assigned an FRC; I have had the opportunity 
to personally see the effectiveness of the program. After we received 
the results of the most recent Compensation and Pension evaluation, we 
contacted FRC Program and they made a few calls in my son's behalf. The 
rating has since been reviewed. Without their assistance, I would have 
been relegated to months of paperwork and appeals.
    In closing, although I understand a number of enhancements are 
underway, I would like to make the following suggestions regarding the 
FRC Program:

    <bullet>  An FRC must have injury specific knowledge and/or 
training, prior to case assignment, especially for those with brain 
injuries and mental disorders. These injuries have long-lasting, 
ongoing effects on an individual's life, and family members and 
veterans cannot be responsible for educating yet another case or care 
manager about the residual impairments of an injury.
    <bullet>  The FRC program must continue to have the capability of 
not only mediating DoD and VA benefits; it would also be extremely 
helpful if they could assist in the coordination of State and Community 
resources. The VA utilized everything they had at their disposal to 
rehabilitate my son after his injury, yet there were additional 
options, progressive medical treatments and therapies available OUTSIDE 
of the VA that could have been helpful.
    <bullet>  With a limited number of individuals serving in an FRC 
capacity, it's apparent not everyone who could benefit from their 
services is assigned one. Current staffing levels may be insufficient 
to address the needs of both the currently assigned and the additional 
cases that need to be referred into this program.
    <bullet>  Steps must be taken by the FRC Program to look back and 
find those who have been struggling. The common misperception that if 
your loved one was injured years ago, then all of your problems have 
been resolved is false and very dangerous.
    <bullet>  Individual outcomes vary and the need for FRC care 
management must be assessed not only on severity of the injury, but on 
the family circumstances and risk variables of individual veterans.
    <bullet>  I am aware that steps are being taken in this direction, 
yet it is imperative to promote visibility of the FRC program and 
streamline the referral process.

    There is one last comment that I would like you to consider; I am a 
54 year old mother. . . . if something were to happen to me, who will 
know enough about my son's individual difficulties and medical needs to 
continue to manage his care? Who will be able to act in his best 
interest or defense to assure he receives his entitled benefits? Who 
would be able to put the proper supports in place for my son to not end 
up on the streets, institutionalized, or even worse? I believe the 
answers to these questions lie in the potential of the FRC program. 
However;

    <bullet>  Veterans may in fact outlive an individual FRC; 
therefore, care cases must be accurately documented to assure lifelong 
continuity for the Veteran.

    I am very pleased the Committee is looking into ways that may 
improve the FRC program. My hopes are that you will not only continue 
the program, but find ways to expand its availability to those in need. 
We can't change the past, but possibly the Committee has the ability to 
change what the future holds for my son and other injured Veterans and 
their families.
    Thank you for the opportunity to share our experiences, I look 
forward to answering any questions you may have.

                                 <F-dash>
                  Statement of Thomas Zampieri, Ph.D.,
     Director of Government Relations, Blinded Veterans Association
Introduction
    Chairman Mitchell, Ranking Member Roe, and Members of the House 
Veterans Affairs Subcommittee on Oversight and Investigations, on 
behalf of the Blinded Veterans Association (BVA), thank you for this 
opportunity to present our testimony today. BVA is the only 
Congressionally chartered Veterans Service Organization (VSO) 
exclusively dedicated to serving the needs of our Nation's blinded 
veterans and their families. The Association has now served blinded 
veterans for more than 64 years.
    Large numbers of seriously wounded Operation Iraqi Freedom (OIF) 
and Operation Enduring Freedom (OEF, Afghanistan) returning 
servicemembers continue to encounter bureaucratic obstacles as they 
seek health care. These obstacles exist despite attempts within the 
Department of Defense (DoD) and the Department of Veterans Affairs (VA) 
to address these issues with new initiatives. The problems have also 
been addressed by the introduction of various Congressionally 
authorized programs and the implementation of suggestions from a wide 
variety of commissions, Presidential task forces, Military Service and 
Veterans Service Organizations, nongovernmental organizations, and 
state and local entities. We still find ourselves somewhat frustrated 
and lost by the barriers we are encountering in assisting our eye-
injured servicemembers.
    Both the Joint Executive Council (JEC) and the Senior Oversight 
Commission (SOC) have proposed changes since the era in which problems 
first surfaced at Walter Reed Army Medical Center in February 2007. 
However, we still hear stories of frustration that have, sadly, gripped 
many of our servicemembers and their families as they seek help but are 
unable to obtain it without serious hardship.
Bureaucratic Obstacles in the Transition Process
    A little more than 1 month ago, on March 17, three blinded OIF-OEF 
veterans (Travis Fugate, David Kinney, and Gilbert Magallanes) appeared 
before this Subcommittee to explain the problems they had encountered 
in the area of case management in transitioning from DoD to VA Care.
    Approximately 1 year ago, on April 2, 2008, we also heard in this 
room from two other blinded veterans, Sergeant Brian Pearce and Navy 
veteran Glen Minney. These two men returned home with severe visual 
impairments that left them legally blind. They and their families 
expected an appropriate level of consultation for the specialized VA 
blind or low-vision services they needed. They waited needlessly for 
the Case Managers, Wounded Transition Unit (WTU) Liaisons, DoD-VA 
Social Workers, VA Nurse Case Managers, and recently appointed Federal 
Recovery Coordinators (FRCs) to make the key VA Visual Impairment 
Service Team (VIST) contacts. These failures raise serious questions 
about the reintegration process. While all of the aforementioned were 
severely injured relatively early in both wars, they nevertheless 
should have been identified, tracked, and assured that all proper 
consultations would occur.
    OIF and OEF servicemembers who have experienced both eye trauma and 
Traumatic Brain Injury (TBI) visual impairments have had to wade 
through a bureaucratic DoD/VA case management system that seems to 
develop a new organizational plan for improvement every year. For 
example, this past month the Army Medical Department (AMEDD) Newsline 
announced that the Warrior Transition Command Office (WTCO) is merging 
with both the Warrior Transition Unit (WTU) Office and the Army Wounded 
Warrior Program (AWWP) to facilitate improved cooperation and synergy. 
The number and variety of offices responsible for Seamless Transition 
are therefore overwhelming. If it is difficult for policy makers to 
come up with effective and efficient solutions to these issues, the 
situation is all the more complex for a young spouse or other family 
member in trying to find the best care for the loved one who has been 
injured in combat operations. BVA is concerned that an unresponsive 
bureaucracy can result in serious medical complications as well as 
social and economic problems for the veterans and their families.
    Various plans for transitioning seriously wounded servicemembers 
began surfacing at the outset of the conflicts in Iraq and Afghanistan. 
It was not until March 25, 2007, however, that a new VA comprehensive 
62-page handbook, ``Transition Assistance and Care Management of OEF 
and OIF Veterans'' 1010.01 was released. Expectations were that ``the 
fix'' was here in this handbook. Then, in April 2008, VA announced a 
plan to contact all seriously wounded going back to 2001 to ensure that 
no servicemember had been lost to VA follow-up clinical care or 
benefits. The plan proposed to send letters to more than 527,000 OIF 
and OEF veterans, alerting them as to how to contact VA for any 
assistance they needed. The most severely injured would be contacted 
first. One year later, we ask the following: Was Congress provided any 
final report regarding attempts to meet the goals of this plan? What 
were the results? From our observation, the very individuals we have 
set out to help have become more lost with each new costly Federal plan 
to increase the number of special warrior call centers, to add WTUs, to 
appoint the 12 full-time FRCs and then TBI Reintegration Managers, to 
add information to Government Web sites, and to involve nongovernmental 
organizations and services in the effort. One anecdotal result of such 
confusion is that an OIF blinded servicemember recently told us that he 
has had five case managers during the past 3 years.
Eye Injured and TBI Visual Complications
    Mr. Chairman, for more than 4 years BVA has attempted to bring 
attention to the large number of servicemembers and now veterans who 
have experienced serious combat eye trauma and TBI visual dysfunction. 
We have looked specifically to the Armed Services Committees, the 
Defense Appropriations Committees, the Committees on Veterans Affairs, 
DoD Health Affairs, and the Veterans Health Administration (VHA). Our 
emphasis has been the growing numbers of those who have returned with 
penetrating direct eye trauma (13 percent of all wounded evacuated) and 
with TBI visual complications (64 percent of those with TBI have 
screened positive for visual dysfunction).
    The top three contributors to combat eye injuries in Iraq have been 
Improvised Explosive Devices (IEDs), Rocket-Propelled Grenades (RPGs), 
and mortars. The IEDs have been the leading cause, having been 
responsible for 56.5 percent of all eye injuries in Iraq. TBI injuries 
typically involve neuron-sensory visual complications that consist of 
neurological visual disorders of diplopia, convergence disorder, 
photophobia, ocular-motor dysfunction, color vision loss, and an 
inability to interpret print.
    Some TBIs result in visual field defects with enough field loss to 
meet legal blindness standards. BVA is discovering ever increasing 
numbers of TBI-related ``functionally blinded OIF and OEF veterans'' 
who, while not legally blind, are unable to perform normal daily 
activities because of loss of vision. More TBI visual screening, 
diagnosis, treatment, rehabilitation, and new visual research studies 
should be initiated. Servicemembers identified with TBI need a concrete 
plan for continued, long-term VA eye care and follow-up. Those who have 
experienced dual sensory injury and loss should be enrolled in VA 
specialized services for hearing and vision loss.
Compatible Records Technology
    The most recent VSO Independent Budget stresses the importance and 
urgency of full development of an interoperable and bidirectional, 
fully compatible medical electronic health records technology system 
for DoD and VA. It is essential to making improvements in care plan 
coordination and delivery of benefits. The timelines for these 
improvements have been missed for years. We urge now that full 
implementation be reached by September 2009. We were encouraged by the 
recent meeting at the White House in which President Obama, Secretary 
Gates, and Secretary Shinseki committed their full attention to jointly 
correcting this lack of progress. They promised to bring a full 
exchange of the military, occupational, and DD-214 forms into this 
bidirectional system in order to improve VA Seamless Transition issues 
for improved health care and benefits.
Case Management and Staffing Issues
    The VSO Independent Budget also recommends that seriously injured 
servicemembers and veterans receiving care from DoD and VA have a clear 
path of recovery. Rehabilitation services must be clearly at their 
service. Case management reintegration programs in which servicemembers 
and veterans might participate must be strictly and closely overseen.
    Careful staffing analysis must be conducted so that redundancy is 
eliminated. Resources must be coordinated and developed for the 
seriously wounded and their family caregivers. Instead of merely 
throwing personnel resources at the problems and adding more layers of 
both personnel and offices, currently existing resources should first 
be reassessed, then adjusted, and then distributed in order to leverage 
solutions for veterans and their families. The addition of staffing 
positions, or in many cases new titles for social work staff, only 
serve to confuse the wounded and their families rather than fix already 
existing problems with information and services. Multiple case managers 
for one individual and his/her family result in reduced efficiency and 
restrict the ability of veterans to know who is actually charged with 
helping them with their specialized rehabilitation and benefits 
assistance.
    BVA also seriously questions, for example, why only Registered 
Nurses are assigned to VA Clinical Case Manager positions when a 
critical shortage of bedside nurses exists. Why not fully utilize the 
skills of some of the 1,820 VA Physician Assistants in the vital area 
of clinical coordination of Case Management? The Military depends 
extensively upon Physician Assistants for both OIF and OEF medical 
care. The Army, in fact, has 698 Physician Assistants with an average 
of more than 28 months of combat field medical duty (Physician 
Assistants assume primary and emergency medical care for all soldiers 
in many battalions). VA Physician Assistants could contribute their 
clinical skills and improve the clinical coordination and consultation 
between the DoD and VA rehabilitation systems. A very tangible benefit, 
and important point, would be that many of the seriously wounded would 
trust and relate to these Physician Assistant providers because they 
have been with them in the field as their key health care providers in 
the past.
Seamless Transition and Traumatic Brain Injury
    As of September 2008, VHA reported that 8,747 servicemembers had 
been diagnosed with TBI. Another approximately 7,500 had been in 
diagnostic testing for possible TBI. IED blasts contributed to more 
than 64 percent of these injuries. As of March 30, 2009, a total of 
45,583 servicemembers had either been wounded or injured from accidents 
in Iraq and Afghanistan, or had other medical conditions requiring 
evacuation. Nevertheless, the VA Poly Trauma Centers nationwide have 
treated fewer than a thousand individuals who have, according to the VA 
definition, been severely injured or catastrophically disabled. This is 
not an overwhelming number of severely wounded for whom a Seamless 
Transition of services must be ensured. One wonders on what scale the 
current crisis would have escalated if the number of hostile wounded 
requiring air medical evacuation were as high as that which existed 
during previous wars. Between 1950 and 1953 in Korea, for example, 
approximately 55,380 with combat trauma were evacuated compared with 
the aforementioned 45,583 over a 7-year period in Iraq and Afghanistan. 
A review found that some 3,470 Korean War-wounded servicemembers 
required neurosurgery care, demonstrating that head trauma was a 
prominent injury even back then.
VA's Full Continuum of Care
    A positive note is that VA continues to build on a now 60-year 
history of successful blind rehabilitation programs, which include ten 
residential centers throughout the United States. At present, the 
implementation of a sweeping three-year Full Continuum of Care plan is 
in full swing. Although the plan was originally initiated to serve the 
projected aging population of veterans with degenerative eye diseases 
requiring specialized services, 54 new intermediate low vision and 
advanced blind rehabilitation outpatient programs also have specialized 
staffing in place to provide the full range of basic, intermediate, and 
advanced vision services essential to the new generation of eye injured 
veterans from OIF and OEF. In addition, VA continues to emphasize 
medical vision research and the latest advances in prosthetic adaptive 
equipment, new treatments, and access to technology through a 
coordinated team approach that is designed to benefit blinded veterans 
of all eras. The new, specialized VA programs for blinded and low-
vision veterans must be utilized by DoD, VA Case Managers, and the 
FRCs, with eventual coordination from the soon-to-be-implemented Vision 
Center of Excellence. Veterans and their families must know where these 
resources are located so that they continue to receive the quality 
health care that includes constantly emerging vision research.
    The mission of the full-time VIST Coordinators is to provide 
blinded veterans with the highest quality of adjustment to vision loss 
through services that include rehabilitation training. To accomplish 
this mission, VISTs have tools at their disposal to locate and identify 
blinded veterans and review all benefits and services for which they 
are eligible. They also coordinate admissions to blind or low-vision 
centers. Unfortunately, DoD Case Managers and sometimes even VA Case 
Managers are not consulting directly with the VISTs. The VIST concept 
was created 40 years ago to coordinate the delivery of comprehensive 
rehabilitation services for blinded veterans. The VIST Coordinators are 
in a unique position to provide comprehensive case management and 
Seamless Transition services to returning OIF-OEF service personnel for 
the remainder of their lives if they (the VIST Coordinators) are indeed 
contacted by DoD Case Managers. The Coordinators can assist not only 
the newly blinded veterans but also their families by providing timely 
and vital information that facilitates psychosocial adjustment to 
vision loss. VIST Coordinators are now following the progress of 135 
blinded OIF and OEF veterans who are receiving VA services. The VIST 
system now employs 158 VIST Coordinators, 43 of which are part time. 
Some 40 Blind Rehabilitation Outpatient Specialists (BROS) provide, 
outside of a clinical environment and most often in the veteran's home, 
both orientation and mobility instruction and living skills training.
    The aforementioned new Advanced and Intermediate Blind outpatient 
programs are very cost effective for high-need, low-vision OIF/OEF 
veterans with residual vision from TBI and who require long-term 
follow-up services. Combined with the VISTs and BROS, the programs can 
provide a wide network of specialized services for veterans and family 
members in conjunction with existing VA eye care clinics. The catch is 
that the eye-injured veteran must be aware of these specialized 
services. With assistance from FRCs, VA Case Managers should coordinate 
specialized medical, psychiatry, neurology, blind rehabilitation, 
physical therapy, occupational therapy, and prosthetics services so 
that veterans' needs can be served as effectively and efficiently as 
possible within VA Medical Centers. Effectively providing the full 
Continuum of Care for OIF and OEF veterans is vital to rehabilitation.
    BVA is very concerned that a few private agencies for the blind who 
wish to serve veterans do not have, as does VA, the full medical, 
surgical subspecialty, psychiatry services, and co-located staffing 
within their facilities. Some such agencies are attempting to enter 
this mix. If veterans and their families were to use such private 
services, they would be required to travel away from their other care 
providers to obtain outpatient blind training. This would add wait 
times for seeing consultants, delays in obtaining prescribed 
medications, and confusion in developing new integrated treatment 
plans. BVA would discourage the use of such private blind agencies 
unless they provide outcome studies and are validated by the Commission 
on Accreditation of Rehabilitation Facilities (CARF). They should also 
be required to utilize VA electronic health care records for clinical 
care and to meet specific quality assurance measures for contracts.
Conclusions
    Servicemembers with complex, serious, and often catastrophic 
injuries should be the first priority of the care management system for 
wounded warrior transition and caregiver assistance. The families of 
these returnees should be p
</pre></body></html>
